No. 20A105

In The
Supreme Court of the United States
___________________________________________________________________________________

HIGH PLAINS HARVEST CHURCH AND MARK HOTALING,
Applicants,
– v. –
JARED POLIS, IN HIS OFFICIAL CAPACITY AS GOVERNOR OF THE STATE OF
COLORADO; AND JILL HUNSAKER RYAN, IN HER OFFICIAL CAPACITY AS EXECUTIVE
DIRECTOR OF THE COLORADO DEPARTMENT OF PUBLIC HEALTH AND ENVIRONMENT,
Respondents.
__________________________________________________________________________________

To the Honorable Neil M. Gorsuch, Associate Justice of the United States
Supreme Court and Circuit Justice for the Tenth Circuit
__________________________________________

Exhibit B: Redlined Version of Dir. Ryan, Third Amended Public Health
Order 20-36 (Dec. 7, 2020)
__________________________________________

PHILIP J. WEISER
Attorney General

W. ERIC KUHN
Senior Assistant Attorney General

NATALIE HANLON LEH
Chief Deputy Attorney General

EMILY B. BUCKLEY
RYAN K. LORCH
Assistant Attorneys General

ERIC R. OLSON
Solicitor General
Counsel of Record

HANNA BUSTILLO
Assistant Attorney General Fellow

1300 Broadway, 10th Floor
Denver, CO 80203
Eric.Olson@coag.gov
720-508-6548
Counsel for Respondents

SECONDTHIRD AMENDED PUBLIC HEALTH ORDER 20-36
COVID-19 DIAL
NovDecember 720, 2020
PURPOSE OF THE ORDER
I issue this Public Health Order (PHO or Order) pursuant to the Governor’s directive in
Executive Order D 2020 235 in response to the existence of thousands of confirmed and
presumptive cases of Coronavirus disease 2019 (COVID-19) and related deaths across the State
of Colorado. This Order implements levels of restrictions for individuals, businesses and
activities to prevent the spread of COVID-19 further in Colorado.
FINDINGS
1.
Governor Polis issued Executive Order D 2020 003 on March 11, 2020, declaring a
disaster emergency in Colorado due to the presence of COVID-19. Since that time, the
Governor has taken numerous steps to implement measures to mitigate the spread of disease
within Colorado, and has further required that several public health orders be issued to
implement his orders.
2.
I have issued public health orders pertaining to the limitation of visitors and nonessential
individuals in skilled nursing facilities, intermediate care facilities, and assisted living
residences; defining the terms of the Governor’s Stay at Home, Safer at Home, and Protect
our Neighbors requirements as well as Critical Business designations; requiring hospitals to
report information relevant to the COVID-19 response; and requiring the wearing of face
coverings in the workplace and urging their use in public. These measures all act in concert to
reduce the exposure of individuals to disease, and are necessary steps to protect the health and
welfare of the public. Additionally, in reducing the spread of disease, these requirements help to
preserve the medical resources needed for those in our communities who fall ill and require
medical treatment, thus protecting both the ill patients and the healthcare workers who
courageously continue to treat patients.
3.
As of NovDecember 16 ,2020, there have been 260,581167,713 known cases of COVID19 in Colorado, 14,86811,203 Coloradans have been hospitalized and 2,7242,276 Coloradans
have died from COVID-19. Multiple sources of data show that COVID-19 transmission and the
use of healthcare due to COVID-19 have leveled off in Colorado. Our work to “flatten the curve”
appears to be succeeding, and the Governor has ordered some lessening of the current Safer at
Home restrictions as a result.

EXHIBIT B

SecondThird Amended Public Health Order 20-36 COVID-19 Dial
NovDecember 720, 2020

4.
Executive Order D 2020 235 requires the harmonizing of the various levels of activities
previously described in prior Protect Our Neighbors, Safer at Home, and Stay at Home
executive orders into one more simplified dial format. Counties must implement the
requirements of the relevant level of the COVID-19 Dial for their jurisdiction, as determined by
the Colorado Department of Public Health and Environment (CDPHE), based upon scientific
metrics established in the Dial. The Dial still strongly encourages that people at risk of severe
illness from COVID-19 remain at home or in the great outdoors as much as possible, but allows
levels of business and activities based upon disease prevalence and other metrics in each county.
Additionally, individuals are encouraged to remain at least 6 feet away from non-household
contacts to reduce the likelihood of disease transmission, and otherwise unregulated gatherings
are also limited in each level of the Dial. As we continue to combat COVID-19 in our
communities, continuing restrictions to mitigate disease spread remain appropriate.
INTENT
This Order sets forth the requirements for implementation of the COVID Dial. Individual
restrictions remain in place concerning limitations on activities, travel, and public gatherings.
Workplace restrictions remain necessary to implement standard Distancing Requirements,
cleaning standards, and other items necessary to reduce the possibility of disease spread.
Additionally, certain businesses and activities require specific guidance based on their business
practices, and those are included in the appendices to this Order.
ORDER
This Order supersedes and replaces Public Health Orders 20-32 and 20-35, as amended. The
Dial levels in PHO 20-36 remain in effect until 11:59 pm on Thursday, November 19, 2020, and
the revised Dial levels in this First Amended PHO 20-36 take effect at 5:00 pm Friday,
November 20, 2020.
I.

COVID Dial - Individual Requirements

A.

All individuals currently living within the State of Colorado are encouraged to stay
at home or in the vast, great outdoors and avoid unnecessary interactions whenever
possible in order to reduce the spread of disease. Individuals living in shared or
outdoor spaces must at all times, to the greatest extent possible, comply with
Distancing Requirements, defined in Section IV below, and are encouraged to
leave their residences only to perform or utilize Necessary Activities, defined in
Section IV below.

2

EXHIBIT B

SecondThird Amended Public Health Order 20-36 COVID-19 Dial
NovDecember 720, 2020

B.

Individuals are urged to wear non-medical cloth face coverings that cover the nose
and mouth whenever in public as required by Executive Order D 2020 091 as
amended and extended. Additionally, pursuant to Executive Order D 2020 138 as
amended and extended by Executive Order D 2020 164, D 2020 190, and D 2020
219, D 2020 237, and D 2020 245 all individuals must wear face coverings in
public indoor spaces, as that term is defined in the Executive Order 2020 138,
unless the individual is 10 years of age or younger, cannot medically tolerate a face
covering, or is performing one of the enumerated activities in Section II.M of
Executive Order D 2020 138 as amended and extended.

C.

Individuals at Risk of Severe Illness from COVID-19 are urged to stay in their
residence at all times except as necessary to seek medical care, and this becomes
more critical as a county’s level in the Dial becomes more restrictive. Individuals
at Risk of Severe Illness from COVID-19 cannot be compelled to work for any
business or government function, including a Critical Business or Critical
Government Function, during the pendency of this pandemic emergency. People
who are sick must stay in their residence at all times except as necessary to seek
medical care, and must not go to work, even for a Critical Business, identified in
Appendix A of this Order.

D.

Individuals who are sick or are experiencing flu-like symptoms should get tested for
COVID-19. If an individual has tested positive for COVID-19 and/or has
developed symptoms of COVID-19, including early or mild symptoms (such as
cough and shortness of breath), they should be in isolation (staying away from
others) until they are released by public health. In most cases, individuals are
released from isolation when they are fever-free, without medication, for twentyfour (24) hours, other symptoms have improved, and at least ten (10) days have
passed since symptoms first appeared. A limited number of people with severe
illness may require longer isolation. Coloradans who are sick and receive negative
COVID-19 test results should continue to stay home while they are sick and should
consult with their healthcare provider about the need for additional testing and the
appropriate time to resume normal activities.

E.

Governmental and other entities are strongly urged to make shelter available to
people experiencing homelessness as soon as possible and to the maximum extent
practicable, and are authorized to take all reasonable steps necessary to provide
non-congregate sheltering along with necessary support services to members of the
public in their jurisdiction as necessary to protect all members of the community.
People experiencing homelessness are urged to protect their health and safety by
complying with Distancing Requirements at all times.

3

EXHIBIT B

SecondThird Amended Public Health Order 20-36 COVID-19 Dial
NovDecember 720, 2020

F.

Individuals are encouraged to limit travel to Necessary Travel, defined in Section
IV below, including but not limited to, travel by automobile or public transit.
People must use public transit only for purposes of performing Necessary
Activities or to travel to and from work to operate Businesses or maintain Critical
Governmental Functions as authorized in Section III of this Order. People riding
on public transit must comply with Distancing Requirements to the greatest extent
feasible.

II.

COVID-19 DIAL LEVELS.

A.

APPLICATION OF THE DIAL.
1.
The COVID-19 Dial consists of six levels that counties qualify for based on
meeting specific metrics. Counties will remain in a Dial level so long as they
continue to meet the metrics in that level. If the county falls out of compliance
with one or more of the metrics associated with that level, they will have two
weeks to develop and implement mitigation strategies to get back into compliance
with the metric. If after two weeks one or more of the metrics remains out of
compliance, the county must participate in a consultation with the Colorado
Department of Public Health and Environment (CDPHE) to determine whether
additional mitigation time and/or mitigation strategies are warranted, or if the
county must move to a lower level. CDPHE reserves the right to move counties
one or more levels more quickly as circumstances warrant.
2.
Counties that meet all metrics for the next less restrictive level for a two week
period may submit a request to CDPHE through their local public health agency
to move to that level, which must include supporting documentation from local
officials, including the local public health agency, local elected officials, and local
hospitals. Counties wishing to move levels from Blue (Safer at Home) to Green
(Protect our Neighbor) must complete an online certification form and process
provided by CDPHE. Counties may individually, or in a grouping of counties
together creating a region, certify that they meet the metrics for Level Green.
3.
Level Green: Protect Our Neighbors Certification
a.
Containment and mitigation plan. Counties or regions certifying for Level
Green must submit with the certification form a mitigation and
containment plan that addresses all of the following:
i.
what the county or region will do if it falls out of compliance with
any of the metrics, and
ii.
how the county or region will
1.
promote public compliance with the guidelines,

4

EXHIBIT B

SecondThird Amended Public Health Order 20-36 COVID-19 Dial
NovDecember 720, 2020

2.

b.

c.

B.

quickly address outbreaks with tactics like issuing isolation,
quarantine and closure orders, and issuing mask
requirement orders
3.
increase mask-wearing in public settings, and
4.
increase flu vaccine uptake to help ensure that the health
care system capacity needed for COVID-19 is not overrun.
Support for containment and mitigation plan. Counties or regions
certifying for Level Green must also submit with the certification form
written support from the following local individuals or agencies that
indicates their agreement with the plan and their commitment to use their
resources and take the necessary and appropriate steps to educate the
community regarding the requirements and enforce compliance:
i.
local elected leaders including county commissioners and mayors,
ii.
the hospitals that serve the county,
iii.
law enforcement,
iv.
emergency management,
v.
the local public health agency, and
vi.
if applicable, tribes.
CDPHE shall review county or region certification forms and the
additional required information and, as appropriate, certify a county or
region to move levels from Blue to Green. Counties or regions certified
for Level Green must maintain compliance with all of the metrics listed in
Section II.B.1 above. If a county or region falls out of compliance with
one or more of the metrics, it must notify CDPHE and implement the
appropriate mitigation strategies in its containment and mitigation plan to
address the noncompliance. Counties and regions shall have a three week
period of time to come back into compliance with the metrics, and if
compliance is not obtained, the county or region shall then work with
CDPHE on any additional steps necessary to come back into compliance.
CDPHE will ultimately determine whether the county may remain in
Level Green or must move to a different level. CDPHE reserves the right
to move counties sooner in the Dial as CDPHE determines is necessary.

LEVEL GREEN: PROTECT OUR NEIGHBORS.
1.
Counties or regions certifying for Level Green must meet all of the following
requirements:
a.
Hospital bed capacity: Hospitals in, or that serve, the county or region, as
defined by the local public health agency (LPHA), have sufficient bed

5

EXHIBIT B

SecondThird Amended Public Health Order 20-36 COVID-19 Dial
NovDecember 720, 2020

b.

c.

d.

e.

f.

g.

capacity to manage a 20 percent surge in hospital admissions or patient
transfers (hospital attestation of patient transfer agreements required.
Please include attestations in the Level Green certification form).
Sufficient personal protective equipment (PPE) supply: Local hospitals
must have two weeks of PPE available based on current PPE use
standards.
Stable or declining COVID-19 hospitalizations:
i.
Stable, meaning no greater than 25% increase, or declining counts
of new confirmed COVID-19 hospitalizations in the county or
region’s referral hospitals, as defined by the LPHA, in the last 14
days compared to previous 14 day period, or
ii.
no more than two new hospital admissions of county or region
residents with confirmed COVID-19 on a single day in the last 14
days.
Fewer new COVID-19 cases:
i.
25 or fewer new cases/100,000 people in the past two weeks (twoweek cumulative incidence), excluding cases among residents of
congregate facilities (senior care, other residential care, youth
corrections, corrections) experiencing outbreaks, or
ii.
for a county or region with a population of less than 30,000, no
more than 7 cases, excluding cases among residents of congregate
facilities, such as senior care, other residential care, youth
corrections, or corrections, experiencing outbreaks, in a two-week
period, or
iii.
two-week average molecular test positivity rate of less than 5%
and county is meeting a minimum testing rate of 0.75 per 1,000
population and their two-week cumulative incidence is no greater
than 50 cases per 100,000 people in the past two weeks.
Sufficient testing capacity: county or region has the capacity to test
(collect samples and testing partnerships) 15 people per 10,000 residents
per day.
Ability to implement case investigation and contact tracing protocol: the
local public health agency is able to implement Colorado’s case
investigation and contact tracing protocol for at least 85 percent of
assigned cases within 24 hours.
Documented surge capacity plan for case investigation and contact
tracing: the local public health agency has a documented surge-capacity
plan that it can investigate and contact trace its share, based on population,
of our state’s overall 500 cases per day goal, meaning it is able to

6

EXHIBIT B

SecondThird Amended Public Health Order 20-36 COVID-19 Dial
NovDecember 720, 2020

2.

C.

investigate and contact trace up to 8.7 cases per 100,000 population per
day.
Counties and regions certified for Level Green may allow any business or
activity within their jurisdiction to operate at 50% of their pre-pandemic capacity
not to exceed 500 people, whichever is less, in any one setting. Individuals at
risk of Severe Illness from COVID-19 are advised to remain at home as much as
possible. Certified counties and regions may impose restrictions within their
jurisdictions that are lower than these maximum capacity limits, but may not
exceed these limits.
a.
Critical Businesses and Critical Government Functions may continue
to operate without capacity limitations, except that Critical Retail must
adhere to 50% of the posted occupancy limit, but must follow the
requirements in Section III.B and C of this Order.
b.
Non-Critical Office-Based Businesses may operate at 50% of their prepandemic capacity with no further person cap or limitation.
c.
Any business or activity that was not authorized to operate in more
restrictive levels is authorized to open in a county or region certified for
Protect Our Neighbors, at the capacity limits described in this Section II.E,
unless limited or prohibited by the certified county or region.
d.
CDPHE reserves the right to require additional containment and
mitigation strategies beyond those detailed by a county or region in their
containment and mitigation plan. CDPHE further reserves the right to
rescind the certification of a region or county for Protect Our Neighbors.
e.
Counties approved for Level Green that wish to exercise the exemption
from Executive Order D 2020 138, as amended and extended, requiring
the wearing of face coverings in public indoor spaces must first consult
with CDPHE.
f.
Counties may increase their businesses and activities operational capacity
by 5% each month that the county continues to meet the metrics in Section
II.B.1 of this Order.

LEVEL BLUE: CAUTIOUS.
1.
The metrics for Level Blue are as follows:
a.
New COVID-19 cases are at an incidence of no greater than 75 per
100,000 in a two week period;
b.
The percent of positive test results over a rolling 14 day average is no
greater than 5%; and
c.
To move into this level from a more restrictive level, Hhospitalization
rates are stable or declining for at least 8 days in the preceding 14 day
period.

7

EXHIBIT B

SecondThird Amended Public Health Order 20-36 COVID-19 Dial
NovDecember 720, 2020

2.

Operating capacities, maintaining Distancing Requirements for non-household
members, for designated sectors and activities in Level Blue are as follows:
a.
Public and private gatherings are limited to no more than 25 individuals
when not otherwise regulated as a specific sector or activity in Section III
of this Order; except that effective October 23, 2020 gatherings in this
level are reduced to no more than 10 individuals from no more than 2
households. Nothing in this Order prohibits the gathering of members
living in the same residence. Individuals at risk of Severe Illness from
COVID-19 are advised to remain at home as much as possible.
b.
Non-Critical Office-based Businesses may allow in-person work up to
50% of their posted occupancy limit.
c.
Critical and Non-critical Retail may operate at 50% of the posted
occupancy limit.
d.
Non-critical Manufacturing may operate at 50% of the posted
occupancy limit up to 175 employees, whichever is less, per room.
e.
Field Services may operate, and real estate open houses must follow the
Indoor Event requirements, including capacity limits.
f.
Personal Services may operate at 50% of the posted occupancy limit, not
to exceed 50 people, whichever is less, per room.
g.
Limited Healthcare Settings may operate at 50% of the posted
occupancy limit, not to exceed 50 people, whichever is less, per room.
h.
Restaurants may operate at 50% of the posted occupancy limit indoors
not to exceed 175 people excluding staff, whichever is less, per room.
Restaurants may also use any existing, licensed outdoor space for inperson dining with the same group limit of 10 and minimum spacing of 6
feet apart. Restaurants must have or obtain approval from their local
government’s permitting, building and fire code oversight agency for any
new outdoor dining space prior to use. Pursuant to Executive Order D
2020 091, as amended and extended, all on-premises licensees licensed
under Articles 3, 4, and 5 of Title 44 of the Colorado Revised Statutes
must cease alcohol beverage sales to end consumers for on-premises
consumption and for takeout between 12:00 A.M. and 7:00 A.M. MDT
each day; however, counties and municipalities may set more restrictive
hours as they determine appropriate.
i.
Smoking Lounges may operate at 50% of the posted occupancy limit, not
to exceed 25 people, whichever is less.
j.
Repealed.Houses of worship and Life Rites may operate at 50% of the
posted occupancy limit indoors not to exceed 175 people, whichever is
less, per room excluding staff. For outdoor worship services, a house of
worship must maintain 6 feet distance between non-household members

8

EXHIBIT B

SecondThird Amended Public Health Order 20-36 COVID-19 Dial
NovDecember 720, 2020

k.
l.
m.

n.

o.
p.

q.

r.

D.

and work with the appropriate local authority to obtain approval for the
maximum number of individuals who may attend in the designated
outdoor space.
Indoor Events may be conducted at 50% of the posted occupancy limit
not to exceed 175 people, whichever is less, per room excluding staff.
Outdoor Events may operate at 50% of the posted occupancy limit not to
exceed 250 people per designated activity or area.
Recreation, including Gyms, recreation centers and indoor pools and
outdoor recreation facilities, may open at 25% capacity, not to exceed 75
people, whichever is less, excluding staff per room indoors or per activity
or area outdoors.
Organized recreational youth or adult league sports may resume
activities with no more than 50 players, excluding coaching staff and
referees or umpires.
Outdoor Guided Activities may be conducted at 50% capacity not to
exceed 25 people, whichever is less.
Children’s Day Camps, Residential Camps, Youth Sports Day Camps
and Exempt Single Skill-Building Youth Camps may be conducted with
no more than 25 participants indoors and 50 participants outdoors.
Casinos may operate their slot machines using the same capacity
requirements as Indoor Events, 50% of the posted occupancy limit not to
exceed 175 people per room, whichever is less, excluding staff. Table
games are not authorized to operate.
Critical Businesses and Critical Government Functions may continue
to operate without capacity limitations, except that Critical Retail must
adhere to 50% of the posted occupancy limit, but must follow the
requirements in Section III.B and C of this Order.

LEVEL YELLOW: CONCERN.
1.
The metrics for Level Yellow are as follows:
a.
New COVID-19 cases are at an incidence of no greater than 175 per
100,000 in a two week period;
b.
The percent of positive test results over a rolling 14 day average is no
greater than 10%; and
c.
To move into this level from a more restrictive level, Hhospitalization
rates are stable or improving for at least 8 days in the preceding 14 day
period.
2.
Operating capacities, maintaining Distancing Requirements for non-household
members, for designated sectors and activities in Level Yellow are as follows:

9

EXHIBIT B

SecondThird Amended Public Health Order 20-36 COVID-19 Dial
NovDecember 720, 2020

a.

b.
c.
d.

e.
f.
g.
h.

i.
j.

Public and private gatherings are limited to no more than 10 individuals
from no more than 2 households when not otherwise regulated as a
specific sector or activity in Section III of this Order. Nothing in this
Order prohibits the gathering of members living in the same residence.
Individuals at risk of Severe Illness from COVID-19 are advised to
remain at home as much as possible.
Non-Critical Office-based businesses may operate the same as Level
Blue, and remote working is strongly encouraged.
Critical and Non-critical Retail may operate the same as Level Blue.
Non-critical Manufacturing may operate at 50% of the posted
occupancy limit not to exceed 50 people, whichever is less, per room.
Establishments larger than 7,200 square feet may use the Distancing Space
Calculator to expand to no more than 100 patrons indoors per room within
their usable space.
Field Services may operate the same as Level Blue.
Personal Services may operate the same as Level Blue.
Limited Healthcare Settings may operate the same as Level Blue.
Restaurants may operate at 50% of the posted occupancy limit indoors
not to exceed 50 people, excluding staff, whichever is less, per room.
Establishments larger than 7,200 square feet may use the Distancing Space
Calculator to expand to no more than 100 patrons indoors per room,
excluding staff, within their usable space. Outdoor dining operates the
same as Level Blue. Pursuant to Executive Order D 2020 091, all onpremises licensees licensed under Articles 3, 4, and 5 of Title 44 of the
Colorado Revised Statutes must cease alcohol beverage sales to end
consumers for on-premises consumption and for takeout between 11:00
P.M. and 7:00 A.M. MDT each day; however, counties and municipalities
may set more restrictive hours as they determine appropriate.
Smoking Lounges may operate at 50% of the posted occupancy limit, not
to exceed 10 people, whichever is less.
Repealed.Houses of worship and Life Rites may operate at 50% of the
posted occupancy limit indoors not to exceed 50 people excluding staff,
whichever is less, per room. Establishments larger than 7,200 square feet
may use the Distancing Space Calculator to expand to no more than 100
patrons indoors per room, excluding staff, within their usable space. If the
event is a seated event, as described in Appendix I, the usable space may
be calculated using 6 feet distancing between non-household contacts
instead of using the calculator. Outdoor worship services operate the same
as Level Blue.

10

EXHIBIT B

SecondThird Amended Public Health Order 20-36 COVID-19 Dial
NovDecember 720, 2020

k.

l.

m.

n.

o.
p.

q.

r.

Indoor Events may operate at 50% of the posted occupancy limit not to
exceed 50 people, whichever is less, per room excluding staff within their
usable space. Establishments larger than 7,200 square feet may use the
Distancing Space Calculator to expand to no more than 100 patrons
indoors per room, excluding staff, within their usable space. If the event is
a seated event as described in Appendix I, the usable space may be
calculated using 6 feet distancing between non-household contacts instead
of using the calculator.
Outdoor Events may operate at 50% of the posted occupancy limit not to
exceed 175 people, whichever is less, within their usable space calculated
using the Distancing Space Calculator, excluding staff, per designated
activity or area. If the event is a seated event as described in Appendix I,
the usable space may be calculated using 6 feet distancing between nonhousehold contacts instead of using the calculator..
Recreation, including Gyms, recreation centers and indoor pools and
outdoor recreation facilities and activities, may operate at 25% capacity,
not to exceed 50 patrons, whichever is less, per room indoors or per
activity or area outdoors.
Organized recreational youth or adult league sports may resume
activities with no more than 25 players, excluding coaching staff and
referees or umpires.
Outdoor Guided Activities may be conducted at 50% capacity not to
exceed 10 people, whichever is less.
Children’s Day Camps, Residential Camps, Youth Sports Day Camps
and Exempt Single Skill-Building Youth Camps may be conducted with
no more than 10 participants indoors and 25 participants outdoors.
Casinos may operate their slot machines using the same capacity
requirements as Indoor Events, 50% of the posted occupancy limit not to
exceed 50 people, whichever is less, per room excluding staff within their
usable space. Establishments larger than 7,200 square feet may use the
Distancing Space Calculator to expand to no more than 100 patrons
indoors per room, excluding staff, within their usable space. If the event is
a seated event as described in Appendix I, the usable space may be
calculated using 6 feet distancing between non-household contacts instead
of using the calculator. Table games are not authorized.
Critical Businesses and Critical Government Functions may continue
to operate without capacity limitations, except that Critical Retail must
adhere to 50% of the posted occupancy limit, but must follow the
requirements in Section III.B and C of this Order.

11

EXHIBIT B

SecondThird Amended Public Health Order 20-36 COVID-19 Dial
NovDecember 720, 2020

E.

LEVEL ORANGE: HIGH RISK.
1.
The metrics for Level Orange are as follows:
a.
New COVID-19 cases are at an incidence of no greater than 350 per
100,000 in a two week period;
b.
The percent of positive results over a rolling 14 day average is no greater
than 15%; and
c.
To move into this level from a more restrictive level, Hhospitalization
rates are stable or declining for at least 8 days increasing in the preceding
14 day period.
2.
Operating capacities, maintaining Distancing Requirements for nonhousehold
members, for designated sectors and activities in Level Orange are as follows:
a.
Public and private gatherings are limited to no more than 10 individuals
from no more than 2 households when not otherwise regulated as a
specific sector or activity in Section III of this Order. Nothing in this
Order prohibits the gathering of members living in the same residence.
Individuals at risk of Severe Illness from COVID-19 are strongly
advised to remain at home as much as possible.
b.
Non-Critical Office-based businesses may allow in-person work up to
25% of their posted occupancy limit, and are strongly encouraged to
implement remote work to the greatest extent possible
c.
Critical and Non-critical Retail may operate at 50% of the posted
occupancy limit, and should offer increased options for curbside pickup,
delivery, and dedicated service hours for senior and at-risk individuals.
d.
Non-critical Manufacturing may operate at 25% of the posted
occupancy limit not to exceed 50 people, whichever is less, per room.
e.
Field Services may operate, and real estate open houses must follow the
Indoor Event requirements.
f.
Personal Services may operate at 25% of the posted occupancy limit, not
to exceed 25 people, whichever is less, per room.
g.
Limited Healthcare Settings may operate at 25% of the posted
occupancy limit, not to exceed 25 people, whichever is less, per room.
h.
Restaurants may operate at 25% of the posted occupancy limit indoors
not to exceed 50 people, excluding staff, whichever is less, per room.
Restaurants may also use any existing, licensed outdoor space for inperson dining with a group limit of 10 and minimum spacing of 6 feet
apart. Restaurants must have or obtain approval from their local
government’s permitting, building and fire code oversight agency for any
new outdoor dining space prior to use. Pursuant to Executive Order D
2020 091 all on-premises licensees licensed under Articles 3, 4, and 5 of
Title 44 of the Colorado Revised Statutes must cease alcohol beverage

12

EXHIBIT B

SecondThird Amended Public Health Order 20-36 COVID-19 Dial
NovDecember 720, 2020

i.
j.

k.

l.

m.

n.

o.

sales to end consumers for on-premises consumption and for takeout
between 10:00 P.M. and 7:00 A.M. MDT each day; however, counties and
municipalities may set more restrictive hours as they determine
appropriate.
Smoking Lounges may operate at 25% of the posted occupancy limit, not
to exceed 10 people, whichever is less.
Repealed.Houses of worship and Life Rites may operate at 25% of the
posted occupancy limit indoors not to exceed 50 people excluding staff,
whichever is less, per room, calculated using the Distancing Space
Calculator. For seated events as described in Appendix I, the usable
space may be calculated using 6 feet distancing between non-household
contacts instead of using the calculator. Outdoor worship services shall
operate at the same level as Blue.
Indoor Events may operate at 25% of the posted occupancy limit not to
exceed 50 people excluding staff, whichever is less, within their usable
space calculated using the Distancing Space Calculator per room. If the
event is a seated event as described in Appendix I, the usable space may
be calculated using 6 feet distancing between non-household contacts
instead of using the calculator.
Outdoor Events may operate at 25% of the posted occupancy limit not to
exceed 75 people excluding staff, whichever is less, within their usable
space calculated using the Distancing Space Calculator per designated
activity or area. If the event is a seated event as described in Appendix I,
the usable space may be calculated using 6 feet distancing between nonhousehold contacts instead of using the calculator.
Recreation
1.
Gyms, recreation centers and indoor pools may operate at 25%
capacity, not to exceed 25 people, whichever is less, excluding
staff per room indoors or per activity or area outdoors. Organized
recreational youth or adult league sports must instead follow the
requirements in Section II.E.2.n below.
2.
Outdoor recreational activities in groups of 10 people or fewer
may occur, maintaining 6 feet Distancing Requirements between
non-household contacts.
Organized recreational youth or adult league sports are not authorized
for indoor settings. Virtual services may be provided, or outdoor
recreational sports in groups of 10 people or fewer may occur, maintaining
6 feet Distancing Requirements between non-household contacts.
Outdoor Guided Activities may be conducted at 25% capacity not to
exceed 10 people, whichever is less.

13

EXHIBIT B

SecondThird Amended Public Health Order 20-36 COVID-19 Dial
NovDecember 720, 2020

p.

q.

r.

F.

Children’s Day Camps, Residential Camps, Youth Sports Day Camps
and Exempt Single Skill-Building Youth Camps may be conducted
virtually or with no more than 10 participants outdoors only.
Casinos may operate at the same capacity requirements as Indoor Events,
25% of the posted occupancy limit not to exceed 50 people excluding
staff, whichever is less, within their usable space calculated using the
Distancing Space Calculator per room. If the event is a seated event as
described in Appendix I, the usable space may be calculated using 6 feet
distancing between non-household contacts instead of using the calculator.
Table games are not authorized.
Critical Businesses and Critical Government Functions may continue
to operate without capacity limitations, except that Critical Retail must
adhere to 50% of the posted occupancy limit, but must follow the
requirements in Section III.B and C of this Order.

LEVEL RED: SEVERE RISK.
1.
The metrics for Level Red are as follows:
a.
New COVID-19 cases are at an incidence of greater than 350 per 100,000
in a two week period;
b.
The percent of positive results over a rolling 14 day average is greater than
15%; and
c.
To move into this level from a more restrictive level, Hhospitalization
rates are stable or declining for at least 8 days increasing in the preceding
14 day period.
2.
Operating capacities, maintaining Distancing Requirements for nonhousehold
members, for designated sectors and activities in Level Red are as follows:
a.
Public and private gatherings involving two or more people are
prohibited, except for the limited purposes expressly authorized in this
Order and for the purpose of accessing or engaging in Necessary
Activities. Nothing in this PHO prohibits the gathering of members living
in the same residence.
b.
Non-critical Office-based businesses may allow in-person work up to
10% of their posted occupancy limit, and are strongly encouraged to
implement remote work to the greatest extent possible.
c.
Critical and Non-critical Retail may operate at 50% of the posted
occupancy limit, and should offer enhanced options for curbside pickup,
delivery, and dedicated service hours for senior and at-risk individuals.
d.
Non-critical Manufacturing may operate at 25% of the posted
occupancy limit not to exceed 50 people, whichever is less, per room.

14

EXHIBIT B

SecondThird Amended Public Health Order 20-36 COVID-19 Dial
NovDecember 720, 2020

e.

f.
g.

h.

i.
j.

k.

l.

Field Services that are not necessary to maintain the safety, sanitation,
and critical operation of residences and other Critical Businesses or
Critical Government Functions are closed. Individual real estate
showings are authorized and open houses may operate with only one
household in the property at a time.
Personal Services may operate at 25% of the posted occupancy limit, not
to exceed 25 people, whichever is less, per room.
Limited Healthcare Settings may operate at 25% of the posted
occupancy limit, not to exceed 25 people, per room to provide those
services.
Restaurants are closed for in-person indoor dining but may offer
curbside, takeout and delivery services. Restaurants may also use any
existing, licensed outdoor space for in-person outdoor dining with tables
limited to members of the same household and minimum spacing of 6 feet
apart. Restaurants must have or obtain approval from their local
government’s permitting, building and fire code oversight agency for any
new outdoor dining space prior to use. Pursuant to Executive Order D
2020 091, all on-premises licensees licensed under Articles 3, 4, and 5 of
Title 44 of the Colorado Revised Statutes must cease alcohol beverage
sales to end consumers for on-premises consumption between 8:00 P.M.
and 7:00 A.M. MDT each day. Takeout may continue until 10:00 PM.
Counties and municipalities may set more restrictive hours as they
determine appropriate.
Smoking Lounges are closed for indoor services, but can remain open
outdoors with tables limited to members of the same household.
Repealed.Houses of worship and Life Rites may operate at 25% of the
posted occupancy limit indoors not to exceed 50 people excluding staff,
whichever is less, per room, calculated using the Distancing Space
Calculator. For seated events as described in Appendix I, the usable
space may be calculated using 6 feet distancing between non-household
contacts instead of using the calculator. Outdoor worship services shall
operate at the same level as Blue.
Indoor Events are closed; except that educational institutions like
museums and aquariums may operate at 25% of the posted occupancy
limit not to exceed 25 people using the Distancing Space Calculator per
room.
Outdoor Events may operate at 25% of the posted occupancy limit not to
exceed 75 people excluding staff, whichever is less, within their usable
space calculated using the Distancing Space Calculator per designated
activity or area. If the event is a seated event as described in Appendix I,

15

EXHIBIT B

SecondThird Amended Public Health Order 20-36 COVID-19 Dial
NovDecember 720, 2020

m.

n.

o.
p.

q.
r.

G.

the usable space may be calculated using 6 feet distancing between nonhousehold contacts instead of using the calculator. Two or more
individuals attending an outdoor event together must be members of the
same household and shall maintain 6 feet distancing from attendees who
are not household members.
Recreation
1.
Gyms, recreation centers and indoor pools may operate at 10%
capacity, not to exceed 10 people, whichever is less, excluding
staff per room indoors. Gyms and recreation centers may
operate with 10 or fewer individuals outdoors. Reservations are
required for all indoor and outdoor services. Organized
recreational youth or adult league sports must instead follow the
requirements in Section II.F.2.n below.
2.
Outdoor recreational activities in groups of 10 people or fewer
may occur, maintaining 6 feet Distancing Requirements between
non-household contacts.
Organized recreational youth or adult league sports are not authorized
for indoor settings. Virtual services may be provided, or outdoor
recreational sports in groups of 10 people or fewer may occur, maintaining
6 feet Distancing Requirements between non-household contacts.
Outdoor Guided Activities may be conducted at 25% capacity not to
exceed 10 people, whichever is less.
Children’s Day Camps, Residential Camps, Youth Sports Day Camps
and Exempt Single Skill-Building Youth Camps may be conducted with
no more than 10 participants outdoors only.
Casinos are closed for in-person work and services under this Order but
may continue to carry out Minimum Basic Operations.
Critical Businesses and Critical Government Functions may continue
to operate without capacity limitations, except that Critical Retail must
adhere to 50% of the posted occupancy limit, but must follow the
requirements in Section III.B and C of this Order.

Level Purple: Extreme Risk
1.
The metrics for Level Purple are as follows:
a.
Hospital capacity risks being breached, which may be indicated by:
i.
approaching the need for hospital crisis standards of care,
ii.
utilizing alternate care sites,
iii.
critical shortages of staff or personal protective equipment (PPE),
or
iv.
hospitals approaching 90% of their reported surge capacity.

16

EXHIBIT B

SecondThird Amended Public Health Order 20-36 COVID-19 Dial
NovDecember 720, 2020

b.
2.

Extreme risk to individuals in the county, region or state as determined by
CDPHE.
Operating capacities, maintaining Distancing Requirements for nonhousehold
members, for designated sectors and activities in Level Purple are as follows:
a.
Public and private gatherings involving two or more people of any
number of people occurring outside a residence are prohibited, except for
the limited purposes expressly authorized in this Order permitted in this
PHO and for the purpose of accessing or engaging in which include
EssentialNecessary Activities. Nothing in this PHO prohibits the
gathering of members living in the same residence.
i.
All travel, including, but not limited to, travel by automobile or
public transit, except Necessary Travel is prohibited. People must
use public transit only for purposes of performing Necessary
Activities or to travel to and from work to operate Critical
Businesses or maintain Critical Governmental Functions. People
riding on public transit must comply with Distancing
Requirements to the greatest extent feasible.
b.
Non-critical Office-based businesses are closed for in-person work but
may continue to perform remote work if possible and carry out Minimum
Basic Operations.
c.
Non-critical Retail is closed for in-person work or services but may
operate and provide curbside, pick up or delivery services, may provide
services online, and may continue to carry out Minimum Basic
Operations. Critical Retail is strongly encouraged to take extraordinary
measures to provide enhanced curbside, pick up or delivery services and
minimize in-person services to the greatest extent possible.
d.
Non-critical Manufacturing may operate at 10% of the posted
occupancy limit not to exceed 25 people, whichever is less, per room.
e.
Field Services that are not necessary to maintain the safety, sanitation,
and critical operation of residences and other Critical Businesses or
Critical Government Functions are closed, including real estate open
houses.
f.
Personal Services are closed for in-person work and services but may
continue to carry out Minimum Basic Operations.
g.
Limited Healthcare Settings that provide services that are ordered by a
medical, dental or veterinary practitioner in accordance with Public Health
Order 20-29 may operate at 10% of the posted occupancy limit, not to
exceed 25 people, per room to provide those services. All other services
offered by Limited Healthcare Settings are closed for in-person work but
may continue to carry out Minimum Basic Operations.

17

EXHIBIT B

SecondThird Amended Public Health Order 20-36 COVID-19 Dial
NovDecember 720, 2020

h.
i.
j.

k.
l.
m.

n.

o.
p.
q.
r.

Restaurants are closed for in-person indoor and outdoor dining but may
offer curbside, takeout and delivery services.
Smoking Lounges are closed for in-person work but may continue to
carry out Minimum Basic Operations.
Repealed.Houses of worship and Life Rites are encouraged to provide
services through remote, online platforms or in outdoor settings, or may
provide in-person services for groups of 10 or fewer per room, excluding
staff.
Indoor Events are closed.
Outdoor Events are closed.
Recreation
1.
Gyms, recreation centers and indoor pools are closed for indoor
activities, except that fitness centers and nonessential personal
services included in residential facilities, such as hotels, apartment
or condominium complexes or similar housing arrangements, that
are limited to use only by hotel guests or residents of the housing
who are following social distancing requirements of at least 6 feet
between individuals, and the hotel or property managers are
performing frequent environmental cleaning may operate. Gyms
and recreation centers may operate with 10 or fewer individuals
outdoors.
2.
Outdoor recreational activities in groups of 10 people or fewer
may occur, maintaining 6 feet Distancing Requirements between
non-household contacts.
Organized recreational youth or adult league sports are not authorized
for indoor settings. Virtual services may be provided, or outdoor
recreational sports in groups of 10 people or fewer may occur, maintaining
6 feet Distancing Requirements between non-household contacts.
Outdoor Guided Activities may operate at 25% capacity of the outdoor
activity setting, not to exceed 10 household members.
Children’s Day Camps, Residential Camps, Youth Sports Day Camps
and Exempt Single Skill-Building Youth Camps are closed.
Casinos are closed for in-person work and services under this Order but
may continue to carry out Minimum Basic Operations.
Critical Businesses and Critical Government Functions may continue
to operate without capacity limitations, except that Critical Retail must
adhere to 50% of the posted occupancy limit, but must follow the
requirements in Section III.B and C of this Order.

18

EXHIBIT B

SecondThird Amended Public Health Order 20-36 COVID-19 Dial
NovDecember 720, 2020

III.

BUSINESS AND ACTIVITY REQUIREMENTS

A.

In Levels Blue, Yellow, and Orange, any business or activity not addressed in this
Order or corresponding interpretive guidance found here may operate with 10 or
fewer individuals per room in accordance with the requirements in Section III.C of
this Order. In Levels Red and Purple, any business not addressed in Sections II.F
and II.G of this Order are closed.
1.
The following establishments remain closed in Levels Blue, Yellow,
Orange and Red:
a.
Bars that do not serve food; and
b.
Amusement parks, and the use of bounce houses and ball pits in any
public or commercial venue.
2.
The following businesses or activities are subject to the requirements of other
public health orders:
a.
Nursing facilities, assisted living residences and intermediate care
facilities are subject to PHO 20-20; and
B.
Voluntary and elective surgeries and procedures are subject to PHO 20-29.

B.

All Critical Businesses and Critical Government Functions, as defined in Appendix
A and Section IV.C of this Order, may continue to operate, and must comply with
Distancing Requirements, adopt work from home or tele-work policies for any
operations that can be done remotely, and implement other strategies, such as staggered
schedules or re-designing workplaces, to create more distance between workers unless
doing so would make it impossible to carry out critical functions. Critical Businesses
and Critical Government Functions should follow all of the requirements in this Order
for their sector, and any applicable CDPHE guidance, unless doing so would make it
impossible to carry out critical functions.

C.

All Business and Government Functions. All Businesses and Government
Functions shall follow the protocols below:
1.
Face Coverings. Face coverings are required pursuant to Executive Order D
2020 138, as amended and extended, for all individuals in public indoor settings
unless the individual is 10 years of age or younger, cannot medically tolerate a
face covering, or is participating in one of the activities described in Section II.M
of Executive Order D 2020 138, as amended and extended.
2.

Work Accommodations. Employers must provide reasonable work
accommodations, such as telecommuting, for Individuals At Risk of Severe
Illness from COVID-19 who are still advised to stay in their residence.
Employers are also strongly encouraged to provide reasonable work

19

EXHIBIT B

SecondThird Amended Public Health Order 20-36 COVID-19 Dial
NovDecember 720, 2020

accommodations for individuals who reside with or are caring for Individuals at
Risk of Severe Illness from COVID-19, or facing child care needs while schools
remain closed.
3.

Disease Prevention Measures for the Workplace. Employers and sole
proprietors shall take all of the following measures within the workplace to
minimize disease transmission, in accord with the CDPHE Guidance:
a.
deputize a workplace coordinator(s) charged with addressing COVID-19
issues;
b.
maintain 6 foot separation between employees and discourage shared
spaces;
c.
clean and disinfect all high touch areas;
d.
post signage for employees and customers on good hygiene;
e.
ensure proper ventilation;
f.
avoid gatherings (meetings, waiting rooms, etc) of more than 10 people or
provide sufficient spaces where Distancing Requirements can be
maintained if larger gatherings are required by law, such as for some
government functions like trials;
g.
implement symptom monitoring protocols, conduct daily temperature
checks and monitor symptoms in employees at the worksite to the greatest
extent possible, or if not practicable, through employee self-assessment at
home prior to coming to the worksite. A sample form can be found here.
If an employee reports any symptoms, refer symptomatic employees to the
CDPHE Symptom Tracker and take all of the following steps:
1.
send employee home immediately;
2.
increase cleaning in your facility and mandate 6 feet Distancing
Requirements of staff from one another;
3.
exclude employee until they are released from isolation by public
health. In most cases, someone is released from isolation when
they are fever-free, without medication, for 24 hours, other
symptoms have improved and 10 days have passed since their first
symptom. A limited number of people with severe illness may
require longer isolation; and
4.
if two or more employees have these symptoms, consult CDPHE’s
outbreak guidance, contact your local health department and
cooperate in any disease outbreak investigations; and
h.
eliminate or regularly clean and disinfect any items in common spaces,
such as break rooms, that are shared between individuals, such as
condiments, coffee makers, vending machines.

20

EXHIBIT B

SecondThird Amended Public Health Order 20-36 COVID-19 Dial
NovDecember 720, 2020

4.

Disease Prevention Measures for Employees. Employers shall take all of the
following measures regarding employees to minimize disease transmission:
a.
require employees to stay home when showing any symptoms or signs of
sickness, which include fever or chills, cough, shortness of breath or
difficulty breathing, fatigue, muscle or body aches, headache, new loss of
taste or smell, sore throat, congestion or runny nose, nausea or vomiting,
and diarrhea and connect employees to company or state benefits
providers;
b.
provide work accommodations for Individuals at Risk of Severe Illness
from COVID-19 who remain subject to Stay at Home advisement,
prioritizing telecommuting, as Individuals at Risk of Severe Illness from
COVID-19 shall not be compelled to go to work during the pendency of
this pandemic emergency;
c.
provide to the greatest extent possible flexible or remote scheduling for
employees who may have child or elder care obligations, or who live with
a person who still needs to observe Stay at Home due to underlying
condition, age, or other factor;
d.
encourage and enable remote work whenever possible;
e.
encourage breaks to wash hands or use hand sanitizer;
f.
phase shift and breaks to reduce density; and
g.
provide appropriate protective gear like gloves, masks, and face coverings
as defined by OSHA industry standards and require face coverings for all
employees in public indoor spaces pursuant to Executive Order D 2020
138, as amended and extended.

5.

Disease Prevention Measures for Customers. Employers and sole proprietors
shall implement the following measures regarding customers to minimize disease
transmission:
a.
create whenever possible special hours for Individuals at Risk of Severe
Illness from COVID-19 only;
b.
encourage 6 foot Distancing Requirements inside of the business for all
patrons;
c.
encourage customer use of protection like gloves and face coverings, and
require face coverings for all customers in public indoor spaces pursuant
to Executive Order D 2020 138, as amended and extended;
d.
provide hand sanitizer at the entrances to the greatest extent possible; and
e.
use contactless payment solutions, no touch trash cans, etc. whenever
possible.

6.

Large Employers. Employers with over fifty (50) employees in any one location

21

EXHIBIT B

SecondThird Amended Public Health Order 20-36 COVID-19 Dial
NovDecember 720, 2020

shall, in addition to the above requirements, implement the following protocols:
a.
implement employee screening systems that follow the requirements of
Section II.C.3.g above in one of the following ways:
i.
Set up stations at the worksite for symptom screening and
temperature checks; or
ii.
Create a business policy that requires at-home employee selfscreening each work day and reporting of the results to the
employer prior to entering the worksite;
b.
close common areas to disallow gatherings of employees;
c.
implement mandatory cleaning and disinfection protocols; and
d.
require mandatory adherence to Distancing Requirements.
D.

Non-Critical Office-Based Businesses may operate at the level described in
Section II of this Order for which the county in which they operate is approved, and
must comply with the requirements of Appendix B of this Order.

E.

All Non-Critical Retail may operate at the level described in Section II of this
Order for which the county in which they operate is approved, and must comply
with the requirements of Appendix C of this Order.

F.

Non-Critical Manufacturing may operate at the level described in Section II of this
Order for which the county in which they operate is approved, and must comply with the
requirements of Appendix D of this Order.

G.

Field Services may operate at the level described in Section II of this Order for which the
county in which they operate is approved, and must comply with the requirements of
Appendix E of this Order.

H.

Personal Services may operate at the level described in Section II of this Order for
which the county in which they operate is approved, and must comply with the
requirements of Appendix F of this Order.

I.

Limited Healthcare Settings may operate at the level described in Section II of this
Order for which the county in which they operate is approved, and must comply with the
requirements of Appendix G of this Order.

J.

Restaurants may operate at the level described in Section II of this Order for which the
county in which they operate is approved, and must comply with the requirements of
Appendix H. Additionally, for Levels Blue, Yellow, Orange and Red, only Bars that
offer food from a licensed retail food establishment for on-premise consumption and

22

EXHIBIT B

SecondThird Amended Public Health Order 20-36 COVID-19 Dial
NovDecember 720, 2020

follow the Restaurant requirements in Appendix H of this Order may operate. All other
Bars are closed to ingress, egress, use, and occupancy by members of the public, but may
offer alcoholic beverages with food service offered through delivery service, window
service, walk-up service, drive-through service, drive-up service, curbside delivery or any
manner set forth in that PHO and in accordance with mandatory Distancing
Requirements.
1.
All licensees licensed pursuant to Articles 3, 4 and 5 of Title 44 of the Colorado
Revised Statutes, including approved sales rooms licensed under C.R.S. §§ 44-3402(2), 44-3-402(7), 44-3- 403(2)(e), or 44-3-407(1)(b), that are licensed for onpremises consumption of alcohol beverages must make meals prepared by a retail
food licensee available at all times that alcohol beverages are served for onpremises consumption. Nothing in Executive Order D 2020 091, as amended
and extended:
a.
prohibits on-premises licensees licensed under Articles 3 or 4 of Title 44
of the Colorado Revised Statutes who have delivery privileges from
making alcohol beverage sales for delivery after the close of on-premise
or take-out services; or
b.
changes or amends the requirements of C.R.S. § 44-3-901(1)(a) that
prohibit selling or serving alcohol beverages to visibly intoxicated people,
and in accordance with Colorado law, over-service violations could result
in administrative action by the Liquor Enforcement Division up to and
including revocation of a liquor license.
K.

Smoking Lounges may operate at the level described in Section II of this Order for
which the county in which they operate is approved. For Smoking Lounges with
outdoor spaces, the establishment must follow local zoning requirements for such spaces.
Smoking Lounges may provide retail sales, pick up, and delivery of their products.

L.

Repealed.Houses of Worship and Life Rites may operate at the level described in
Section II of this Order for which the county in which they operate is approved, and
should follow the Colorado Department of Public Health and Environment Cleaning
Guidance, as well as the CDC guidelines for Cleaning and Disinfecting Your Facility in
preparing their buildings prior to, during, and following any gathering. Restrooms and the
worship space, particularly any metal or plastic on chairs, and all high touch surfaces or
shared objects must be cleaned and disinfected between services.
Houses of Worship are encouraged to implement electronic platforms to conduct
services whenever possible or to conduct more frequent services of 10 people or less to
allow for compliance with Distancing Requirements.
For Life Rites, only the ceremony or rite itself is included in this authorization,
receptions or parties associated with all Life Rites are not included in this authorization.

1.

2.

23

EXHIBIT B

SecondThird Amended Public Health Order 20-36 COVID-19 Dial
NovDecember 720, 2020

M.

Indoor and Outdoor Events may operate at the level described in Section II of this
Order for which the county in which they operate is approved, and must comply with the
requirements of Appendix I of this Order.

N.

Recreation, including Gyms and Fitness and outdoor recreation facilities and
activities may operate at the level described in Section II of this Order for which the
county in which they operate is approved, and must comply with the specific
requirements of Appendix J of this Order.

O.

Sports.
1.
Organized Recreational Youth or Adult League Sports may operate at
the level described in Section II of this Order for which the county in which
they operate is approved, and must comply with the requirements of
Appendix J.
2.
Professional sports may resume pre-season practices, training and league
play after they submit a reopening plan that details their disease prevention
and mitigation strategies to the CDPHE and receive approval, and visiting
teams will also follow those approved plans when playing in Colorado.
Many professional leagues have created their own reopening requirements
and guidance, and professional teams are expected at a minimum to
incorporate those requirements into their reopening plans. Colorado
sporting events that include both a professional event and a recreational
event must have their professional opening plan reviewed and approved by
CDPHE. Any recreational sporting events must follow the recreation
requirements contained in Appendix J and any guidance found here.
3.
High School Sports that do not follow the personal recreation guidance in
Appendix J, and are operating under the auspices of the Colorado High
School Athletic Association (CHSAA), may resume practices and games
after CHSAA submits plans to CDPHE that detail their disease prevention
and mitigation strategies and receives approval.

P.

Outdoor Guided Activities may operate at the level described in Section II of this
Order for which the county in which they operate is approved, and must comply
with the requirements of Appendix K of this Order.

Q.

Children’s Day Camps, Residential Camps, Youth Sports Day Camps and
Exempt Single Skill-Building Youth Camps may operate at the level described in
Section II of this Order for which the county in which they operate is approved, and
must comply with the requirements of Appendix L of this Order. License-exempt

24

EXHIBIT B

SecondThird Amended Public Health Order 20-36 COVID-19 Dial
NovDecember 720, 2020

child care programs, such as single skill-building and 72-hour camps, are
considered critical child care services and must follow the child care guidance,
including the case and outbreak guidance for schools and child cares. Single skillbuilding team or group sports camps are not considered critical child care services
and must follow the requirements in Section II and Appendix L of this Order.
R.

Postsecondary Institutions. Programs and courses at public and private
postsecondary institutions may resume in-person classes at the same capacity
restrictions for Indoor Events at the level described in Section II of this Order for
which the county in which they operate is approved.
1.
Each institution should consult with the local public health agency for the
county in which the institution resides concerning implementation of disease
prevention measures in accordance with the CDPHE Guidance for Higher
Education, including following all Distancing Requirements, determining
whether course content should be delivered remotely or in person based
upon the prevalence of disease at the school and in the county, and
managing any cases and outbreaks, including helping implement quarantine
and isolation as needed in accordance with CDPHE guidelines, to minimize
any further spread of disease.
2.
Institutions that conduct COVID-19 sample collection for testing in a lab
that they own, operate or manage must report all test results, whether
positive or negative, to CDPHE. Institutions that contract out laboratory
testing services for COVID-19 samples must include in their contracts with
the laboratory service provider the requirement to submit all COVID-19
testing results to CDPHE.
3.
Institutions shall work in close collaboration and coordination with local
health officials and health care partners to develop protocols for confirmed
cases and outbreaks of COVID-19 at the institution and in the community.
Such protocols shall include communication with public health, case
notification, environmental cleaning, contact tracing, and arranging for
quarantine of contacts and isolation of cases in accordance with CDPHE
guidelines.
4.
All possible outbreaks of COVID-19 must be reported to public health
within 24 hours of detection in a manner specified by CDPHE. If an
institution is unsure if the cases had contact with one another, report to
public health for investigation.
a.
An outbreak in a postsecondary institution is defined as two or more
laboratory-confirmed COVID-19 cases among students or staff, from
separate households, in contact with one another with either onset of

25

EXHIBIT B

SecondThird Amended Public Health Order 20-36 COVID-19 Dial
NovDecember 720, 2020

5.

6.

symptoms of disease or a positive test date if asymptomatic, within a
14-day period.
Institutions shall respond to CDPHE surveys collecting information
concerning COVID-19 investigation and response activities, such as the use
of quarantine and isolation, in a manner specified by CDPHE.
Residential postsecondary institutions shall have policies in place that
require all of the following:
a.
All students of residential postsecondary institutions shall monitor
their health daily for the following COVID-19 symptoms: subjective
fever/chills; cough; shortness of breath or difficulty breathing;
muscle or body aches; sore throat; headache; diarrhea; nausea or
vomiting; congestion or runny nose; new loss of taste or smell.
b.
Any student of a residential postsecondary institution who develops
COVID-19 symptoms during the term of this Order shall:
i.
If living in on campus housing, notify their postsecondary
institution immediately and follow all public
health
requirements for isolation and quarantine in accordance with
CDPHE guidelines;
ii.
If living in off campus congregate student housing, defined as
10 or more students living in the same residence, notify their
local public health agency immediately and follow all public
health requirements for isolation and quarantine in accordance
with CDPHE guidelines;
iii.
Stay separated away from others (i.e. isolate) until all of the
following criteria are met:
1.
No fever (of at least 100.4 degrees), without medication,
for at least twenty-four (24) hours; and
2.
All other COVID-19 symptoms have improved; and
3.
At least ten (10) days have passed since symptoms first
appeared, or longer if so directed by public health;
iv.
Stay separated from all other people as much as possible. Use a
separate bathroom, if available; if unavailable, disinfect all
touched surfaces before leaving the bathroom;
v.
Contact any health care provider prior to visiting its office so
that arrangements can be made to prevent exposing other
persons at the office;
vi.
In the event of a medical emergency and need to call 911, notify
dispatch personnel that they may have COVID-19 and put on a
Face Covering before the emergency medical personnel arrives;
and

26

EXHIBIT B

SecondThird Amended Public Health Order 20-36 COVID-19 Dial
NovDecember 720, 2020

vii.

7.

Cooperate with public health and school representatives
regarding case investigation and contact tracing.
Students of postsecondary institutions are subject to COVID-19 screening,
quarantine, and isolation requirements as follows:
a.
Screening requirements.
i.
Screening for COVID-19 symptoms includes all of the
following: fever of 100.4F or higher; cough; shortness of
breath or difficulty breathing; muscle or body aches; sore
throat; headache; diarrhea; nausea or vomiting; congestion or
runny nose; new loss of taste or smell.
ii.
Institutions shall implement screening protocols for students
in campus housing and for access to other campus buildings,
such as class buildings, recreational facilities, and dining
halls. Restrict building access by non-residents, including
outside guests, non-residential staff, and others. These
restrictions may not apply when the law otherwise requires,
such as allowing personal care attendants for students with
disabilities.
iii.
Students living in off campus congregate student housing,
defined as 10 or more students living in the same residence,
shall implement screening protocols for all residents that
share off campus congregate student housing as well as any
guests to the residence and maintain records of the screening
results. Each off campus congregate student residence shall
designate a contact person to work with public health and
school representatives regarding implementation of public
health requirements.
b.
Isolation requirements. Institutions for students in campus housing
and students in off campus congregate student housing shall
implement, in collaboration with public health, isolation protocols as
needed for students who are symptomatic or test positive for
COVID-19.
i.
Isolate any symptomatic or COVID-19 positive cases away
from others in the residence and limit the sharing of services, such as
restrooms or kitchen facilities, with other residents to the greatest
extent possible,
ii.
notify public health immediately, no later than 24 hours from
detection, and

27

EXHIBIT B

SecondThird Amended Public Health Order 20-36 COVID-19 Dial
NovDecember 720, 2020

iii.

8.

S.

isolated individuals must remain in isolation without leaving
the residence other than for medical care until released by
public health;
c.
Quarantine requirements. Institutions for students in campus
housing and students in off campus congregate student housing shall
implement, in collaboration with public health, quarantine protocols
in accordance with CDPHE guidelines as needed for students who
are close contacts of a symptomatic individual or an individual who
tests positive for COVID-19.
i.
Quarantine for 14 days from the last date of exposure any
close contacts, defined as individuals who were within 6 feet
of an ill or symptomatic individual for 15 minutes or longer
or other high risk contact defined by public health., and
iii.
quarantined individuals may only leave the residence for
medical care;
d.
Clean and disinfect the residence in accordance with CDC’s shared
or congregate housing guidance, found here;
e.
Provide public health as soon as possible the information necessary
for case investigation and contact tracing; and
f.
Implement testing for COVID-19 for all congregate student housing
residents in accordance with the recommendations of public health.
Institutions of higher education should utilize their student disciplinary
process regarding students who are not complying with state and local
public health orders.

Ski Resorts.
1.
must:
a.
b.

2.
3.

Prior to opening a ski resort, the resort must do all of the following:
Work with the local community to create an opening plan. The plan

Comply with any guidance issued by CDPHE for ski resorts,
Phase in operations in a way to ensure the ski resort can be fully
compliant with all guidelines,
c.
Factor in the overall capacity that a community can safely host and
follow all Distancing Requirements, and
d.
Describe how the ski resort will assist the community in dealing with
the increased volume of tourists during winter;
Receive local government approval of the opening plan, either the county or
municipality as appropriate;
Submit the opening plan to the local public health agency for their review to
ensure alignment with state and local guidance; and

28

EXHIBIT B

SecondThird Amended Public Health Order 20-36 COVID-19 Dial
NovDecember 720, 2020

4.

If approved by the local public health agency, the agency will submit the
opening plan to CDPHE for final review and approval.

IV.

DEFINITIONS

A.

Bar means a bar, tavern, brew pub, brewery, microbrewery, distillery pub, winery,
tasting room, special licensee, club, and other place of public accommodation serving
alcoholic beverages and, if serving food, only snacks and not kitchen-prepared meals.

B.

COVID-19 Dial or Dial means the six levels, designated as Green, Blue, Yellow,
Orange, Red and Purple, defined by CDPHE in which a county may allow businesses to
operate and activities to occur based upon standard metrics regarding disease incidence,
percent positivity, and hospitalization rates, with additional metrics required to be met for
Level Green.

C.

Critical Business. Any business, including any for profit or non-profit, regardless of its
corporate structure, engaged primarily in any of the commercial, manufacturing, or
service activities listed in Appendix A, must continue to comply with the guidance and
directives for maintaining a clean and safe work environment issued by the Colorado
Department of Public Health and Environment (CDPHE) and any applicable local health
department. Critical Businesses must comply with Distancing Requirements and all
PHOs currently in effect to the greatest extent possible and will be held accountable for
doing so. A list of Critical Businesses is contained in Appendix A of this Order.

D.

Critical Government Functions. The provision, operation and support of the following
state and local government functions shall continue:
1.
Public health and safety (public health agencies, police stations, fire and rescue
stations, sheriff authorized search and rescue, correctional institutions, emergency
vehicle and equipment storage, and, emergency operation centers)
2.
Emergency response
3.
Judicial branch operations including state and municipal courts, including
attorneys, experts, witnesses, parties, and any personnel necessary for trials, court
appearances, or other court business. The Judicial branch is encouraged to make
remote participation available to the greatest extent possible.
4.
The Colorado General Assembly, legislative bodies of municipal governments,
and executive branch functions
5.
Emergency medical (hospitals, ambulance service centers, urgent care centers
having emergency treatment functions, and non-ambulatory surgical structures

29

EXHIBIT B

SecondThird Amended Public Health Order 20-36 COVID-19 Dial
NovDecember 720, 2020

6.
7.

8.

9.

10.

11.
12.
13.

14.
15.

E.

but excluding clinics, doctors offices, and non-urgent care medical structures that
do not provide these functions)
Designated emergency shelters
Communications (main hubs for telephone, broadcasting equipment for cable
systems, satellite dish systems, cellular systems, television, radio, and other
emergency warning systems, but excluding towers, poles, lines, cables, and
conduits)
Public utility plant facilities for generation and distribution (drinking water and
wastewater infrastructure, hubs, treatment plants, substations and pumping
stations for power and gas, but not including towers, poles, power lines, and oil
and gas buried pipelines)
Transportation. All public and private airports, airlines, taxis, transportation
network companies (such as Uber and Lyft), vehicle rental services, paratransit,
and other private, public, and commercial transportation and logistics providers
necessary for Necessary Activities, in compliance with the transportation
guidance found here.
Transportation infrastructure (aviation control towers, air traffic control centers,
and emergency equipment aircraft hangars), critical road construction and
maintenance
Hazardous material safety
Services to at-risk populations and Individuals at Risk of Severe Illness from
COVID-19
Activities related to federal, state, and local elections, including any required acts
of a political party, provided Distancing Requirements are observed to the
greatest extent possible
Any government service, state or local, required for the public health and safety,
government functionality, or vital to restoring normal services
Election operations and activities within voter services and polling centers, county
clerk offices, and other locations where election operations occur, including but
not limited to the functions performed by election judges, signature
gatherers/circulators, authorized watchers, and voters.

Distancing Requirements. To reduce the risk of disease transmission, individuals shall
maintain at least a six-foot distance from other individuals, wash hands with soap and
water for at least twenty seconds as frequently as possible or using hand sanitizer, cover
coughs or sneezes (into the sleeve or elbow, not hands), regularly clean high-touch
surfaces, and not shake hands.

30

EXHIBIT B

SecondThird Amended Public Health Order 20-36 COVID-19 Dial
NovDecember 720, 2020

F.

Field Services means a service that is being provided out in the field as opposed to a
company property, including third party private properties, such as a third party
household.

G.

Gym means a building or room used for indoor sports or exercise, such as fitness, dance,
exercise or group classes, exercise studios and centers, recreation centers, bowling alleys,
pools, and other indoor athletic facilities.

H.

Individual at Risk of Severe Illness from COVID-19 means:
1.
Individuals who are 65 years and older;
2.
Individuals who have cancer;
3.
Individuals who have chronic kidney disease;
4.
Individuals who have chronic obstructive pulmonary disease;
5.
Individuals who are immunocompromised (weakened immune system) from solid
organ transplant;
6.
Individual who have a body mass index of 30 or higher;
7.
Individuals who have serious heart conditions, such as heart failure, coronary
artery disease, or cardiomyopathies;
8.
Individuals who have Sickle cell disease;
9.
Individuals who have Type 2 diabetes mellitus;
10.
Individuals who are pregnant;
11.
Individuals who smoke; and
12.
Other individuals determined to be high risk by a licensed healthcare provider.

I.

Indoor Events means indoor activities like receptions, events, concerts, indoor markets,
non-critical auctions, theaters, trade shows, or other indoor venues not covered in other
sectors listed in this Order.

J.

Limited Healthcare Settings means those locations where certain healthcare services are
provided, including acupuncture (not related to personal services), athletic training (not
related to personal services), audiology services, services by hearing aid providers,
chiropractic care, massage therapy (not related to personal services), naturopathic care,
occupational therapy services, physical therapy, and speech language pathology services.
Services provided in Limited Healthcare Settings that are ordered by a medical, dental
or veterinary practitioner, are subject to the requirements of PHO 20-29; otherwise, the
services are subject to the requirements of PHO 20-36.

K.

Minimum Basic Operations. The minimum necessary activities to (1) maintain the
value of the business’s inventory, ensure security, process payroll and employee benefits,
or for related functions; or (2) facilitate employees of the business being able to continue

31

EXHIBIT B

SecondThird Amended Public Health Order 20-36 COVID-19 Dial
NovDecember 720, 2020

to work remotely from their residences are allowable pursuant to this Order; continue
filling online product orders and to process customer orders remotely. Any business
supporting Minimum Basic Operations must comply at all times with Distancing
Requirements.
L.

Necessary Activities. For purposes of this PHO, individuals are encouraged to only leave
their Residence to perform any of the following Necessary Activities, provided they
comply at all times and to the greatest extent possible with Distancing Requirements
below. Individuals at Risk of Severe Illness from COVID-19 are urged not to leave
their residence except as necessary to receive medical care. People who are sick must not
leave their residence except as necessary to receive medical care, and must not go to
work, even for a Critical Business. Necessary Activities include:
1.
Engaging in activities or performing tasks essential to their health and safety, or to
the health and safety of their family or household members, including, but not
limited to, pets and livestock, such as, by way of example only and without
limitation, obtaining medical supplies, walking your dog, feeding barnyard
animals, obtaining durable medical equipment, obtaining medication, visiting a
healthcare professional, or obtaining supplies they need to work from home.
2.
Obtaining necessary services or supplies for themselves and their family or
household members, or to deliver those services or supplies to others, such as, by
way of example only and without limitation, food, pet supply, other household
consumer products, and products or equipment necessary to maintain the safety,
sanitation, and essential operation of a Residence.
3.
Engaging in outdoor activity, such as, by way of example and without limitation,
walking, hiking, nordic skiing, snowshoeing, biking or running. For purposes of
outdoor activity, State parks will remain open to the public who live in the vicinity
to engage in walking, hiking, biking, running, camping and similar outdoor
activities, basketball and tennis courts may be open for use. For other parks, check
with the local jurisdiction and follow any requirements for that jurisdiction. For ski
resorts, the local public health agency must approve the ski resort’s plan prior to
opening as outlined in section III.S. Additionally, the permitted outdoor activities
in this PHO do not include activities that would violate the Distancing
Requirements defined in this Section IV.
4.
Performing work providing for businesses, government entities, and industries
authorized Section II of this Order, or to otherwise carry out activities permitted in
this Order.
5.
Caring for a family member, a vulnerable person, or pet in another household, or to
care for livestock kept at a location other than an individual’s home.

32

EXHIBIT B

SecondThird Amended Public Health Order 20-36 COVID-19 Dial
NovDecember 720, 2020

M.

Necessary Travel. For purposes of this Order, travel is Necessary for any of the
following purposes: (1) providing or accessing Necessary Activities, Minimum Basic
Operations, Critical Government Functions, and Critical Businesses, and other
businesses or industries authorized in Section II of this Order; (2) receiving materials for
distance learning, for receiving meals, and any other related services from educational
institutions; (3) returning to a place of residence from outside the jurisdiction; (4) travel
required by law enforcement or court order; (5) travel to transport children between
separate households pursuant to a parenting plan or other agreement governing parental
responsibilities; (6) non-residents returning to their place of residence; (7) moving to a
new residence, including individuals whose Residence is unsafe due to domestic violence
concerns.

N.

Non-Critical Office-Based Business means any commercial business that is conducted
in an office and not a production environment and is not included in the list of Critical
Businesses in Appendix A.

O.

Non-Critical Retail means any retail service that is not included in the list of critical
retail services in Appendix C. Examples of Non-Critical Retail include retailers of
clothing, home goods, cell phone stores, mattresses, appliances, thrift shops,
apothecaries, vape and tobacco shops, craft, hobby and fabric stores, fishing tackle
retailers, sporting goods, boutiques, etc.

P.

Outdoor Events means outdoor activities such as outdoor receptions, events, fairs,
rodeos, non-critical auctions, concerts, outdoor markets, or other outdoor venues not
covered in any other sector in this Order. This does not include activities covered under
delineated sectors in this Order such as Restaurants, Houses of Worship, or Outdoor
Guided Tours.

Q.

Personal Services means services and products that are not necessary to maintain an
individual’s health or safety, or the sanitation or essential operation of a business or
residence. Personal Services include, but are not limited to, pastoral services except as
specified in Appendix F, personal training, dog grooming, or body art and also applies to
noncritical professionals regulated by the Division of Professions and Occupations,
within the Department of Regulatory Agencies (DORA) including but not limited to
services provided by personal beauty professionals such as hairstylists, barbers,
cosmetologists, estheticians, nail technicians, as well as massage therapists, whose work
requires these professionals to be less than six feet from the person for whom the services
are being provided. Massage therapy services ordered by a healthcare professional
should consult Executive Order D 2020 027, as amended and extended.

33

EXHIBIT B

SecondThird Amended Public Health Order 20-36 COVID-19 Dial
NovDecember 720, 2020

R.

Recreation means Gyms as defined in Section IV.F and outdoor recreation facilities and
activities, such as playgrounds, tennis and pickleball courts, bike and motocross tracks,
and outdoor swimming pools.

S.

Restaurant means restaurants, food courts, cafes, coffeehouses, and other similar places
of public accommodation offering food or beverage for on-premises consumption or from
a licensed retail food establishment.

T.

Safer at Home means individuals stay in your place of residence as much as possible,
and avoid unnecessary social interactions.

U.

Smoking Lounge means any establishment authorized at the state or local level to
provide space for patrons to smoke or vape, indoors or outdoors, while at the
establishment.

V.

Stay at Home means to stay in your place of residence, which includes hotels, motels,
and shared rental facilities, and not leave unless necessary to provide, support, perform,
or operate Necessary Activities, Minimum Basic Operations, Critical Government
Functions, and Critical Businesses.

V.

VARIANCE REQUESTS.

Any Colorado county that is in Level Blue or Yellow may request a site specific variance from
CDPHE authorizing implementation of different restrictions for the requested site than what is
required in this Order. The variance request must include the site requirements endorsed by the
local public health agency and adopted by the county commissioners or other county-level
governing body, in addition to verification from local hospitals that they have the capacity to
serve all people needing their care. Further requirements concerning variance requests are
contained in Appendix M.

VI.

ENFORCEMENT

This Order will be enforced by all appropriate legal means. Local authorities are encouraged to
determine the best course of action to encourage maximum compliance. Failure to comply with
this order could result in penalties, including jail time, and fines, and may also be subject to
discipline on a professional license based upon the applicable practice act.
VII.

SEVERABILITY

34

EXHIBIT B

SecondThird Amended Public Health Order 20-36 COVID-19 Dial
NovDecember 720, 2020

If any provision of this Order or the application thereof to any person or circumstance is held to
be invalid, the remainder of the Order, including the application of such part or provision to other
persons or circumstances, shall not be affected and shall continue in full force and effect. To this
end, the provisions of this Order are severable.

VIII. DURATION
This Order shall become effective on Friday, November 20, 2020 and will expire in 30 days
unless extended, rescinded, superseded, or amended in writing.

_________________________________
Jill Hunsaker Ryan, MPH
Executive Director

____________________________
Date

Appendix A. Critical Businesses List
Appendix B. Non-Critical Office-Based Businesses
Appendix C: Critical and Non-Critical Retail Requirements
Appendix D: Non-Critical Manufacturing
Appendix E: Field Services
Appendix F: Personal Services
Appendix G: Limited Healthcare Settings
Appendix H: Restaurants
Appendix I: Indoor and Outdoor Events
Appendix J: Recreation
Appendix K: Outdoor Guided Services
Appendix L: Children’s Day Camps, Residential Camps, Youth Sports Day Camps And
Exempt Single Skill-Building Youth Camps
Appendix M: County Site Specific Variance Requests

35

EXHIBIT B

SecondThird Amended Public Health Order 20-36 COVID-19 Dial
NovDecember 720, 2020

APPENDIX A: CRITICAL BUSINESSES
Critical Business. Any business, including any for profit or non-profit, regardless of its
corporate structure, engaged primarily in any of the commercial, manufacturing, or service
activities listed below, should follow all of the requirements in this Order for their sector, and
any applicable CDPHE guidance, unless doing so would make it impossible to carry out critical
functions, in which case they may exceed the sector restrictions to the minimum extent necessary
to carry out critical functions. Critical Retail may not exceed 50% of the posted occupancy
limit under all Dial levels. Critical Businesses must comply with the guidance and directives
for maintaining a clean and safe work environment issued by the Colorado Department of Public
Health and Environment (CDPHE) and any applicable local health department. Critical
Businesses must comply with Distancing Requirements and all PHOs currently in effect to the
greatest extent possible and will be held accountable for doing so.
“Critical Business” means:
1. Healthcare Operations, Including:

●
●
●
●
●
●
●
●
●
●
●

Hospitals, clinics, and walk-in health facilities
Medical and dental care, including ambulatory providers
Research and laboratory services
Medical wholesale and distribution
Home health care companies, workers and aides
Pharmacies
Pharmaceutical and biotechnology companies
Behavioral health care providers
Veterinary care and livestock services
Nursing homes, residential health care, or congregate care facilities
Medical supplies and equipment manufacturers and providers, including durable medical
equipment technicians and suppliers
● Blood banks
2. Critical Infrastructure, Including:

●
●
●
●
●
●

Utilities and electricity, including generation, transmission, distribution and fuel supply
Road and railways
Oil and gas extraction, production, refining, storage, transport and distribution
Public water and wastewater
Telecommunications and data centers
Transportation and infrastructure necessary to support critical businesses
36

EXHIBIT B

SecondThird Amended Public Health Order 20-36 COVID-19 Dial
NovDecember 720, 2020

● Hotels, and other places of accommodation
● Businesses and organizations that provide food, shelter, social services, and other
necessities of life for economically disadvantaged, persons with access and functional
needs, or otherwise needy individuals
● Food and plant cultivation, including farming crops, livestock, food processing and
manufacturing, animal feed and feed products, rendering, commodity sales, and any other
work critical to the operation of any component of the food supply chain
● Any business that produces products critical or incidental to the construction or operation
of the categories of products included in this subsection
● Flight schools
3. Critical Manufacturing, Including:

●
●
●
●
●
●
●
●
●
●
●

Food processing, manufacturing agents, including all foods and beverages
Chemicals
Computers and computer components
Medical equipment, components used in any medical device, supplies or instruments
Pharmaceuticals
Sanitary products
Telecommunications
Microelectronics/semiconductor
Agriculture/farms
Household paper products
Any business that produces products critical or incidental to the processing, functioning,
development, manufacture, packaging, or delivery of any of the categories of products
included in this subsection
● Any manufacturing necessary to support a Critical Business
4. Critical Retail, Including:

●
●
●
●

Grocery stores including all food and beverage stores
Farm and produce stands
Gas stations and convenience stores
Restaurants for curbside, takeout and delivery, in compliance with the requirements of
Appendix H of this Order
● Marijuana dispensary (only for the sale of medical marijuana or curbside delivery
pursuant)
● Liquor stores for curbside, takeout and delivery
● Firearms stores
37

EXHIBIT B

SecondThird Amended Public Health Order 20-36 COVID-19 Dial
NovDecember 720, 2020

● Hardware, farm supply, and building material stores
● Establishments engaged in the retail sale of food and any other household consumer
products (such as cleaning and personal care products), excluding retailers of only health
and nutrition-related products (vitamins, minerals, supplements, herbs, sports nutrition,
diet and energy products)
● Establishments engaged in the sale of products that support working from home (this
exclusion does not include businesses that primarily sell hobby craft supplies)
5. Critical Services, Including:

●
●
●
●
●
●

●
●
●
●
●
●
●
●
●

Trash, compost, and recycling collection, processing and disposal
Mail and shipping services, and locations that offer P.O. boxes
Self-serve laundromats and garment and linen cleaning services for critical businesses
Building cleaning and maintenance
Child care services, following case and outbreak guidance for child care and schools
Automobile rental, automobile online sales with no touch delivery service, auto supply
and repair (including retail dealerships that include repair and maintenance, but not in
person retail sales)
Warehouse/distribution and fulfillment, including freight distributors
Funeral homes, crematoriums, and cemeteries, and may operate as authorized for Life
Rites in Section III.L of this Order
In-person pastoral services for individuals who are in crisis or in need of end of life
services provided Distancing is observed to the greatest extent possible.
Houses of Worship and associated ceremonies such as weddings, funerals and baptisms
(religious or secular) as authorized in Sections II and III of this Order
Storage for Critical Businesses
Animal shelters, animal boarding services, animal rescues, zoological facilities, animal
sanctuaries, animal grooming, and other related facilities
Moving services
In person group counseling or recovery meetings for substance abuse or behavioral health
following Distancing of 6 feet and no more than 10 participants
Libraries

6. News Media
●
●
●
●

Newspapers
Television
Radio
Other media services

38

EXHIBIT B

SecondThird Amended Public Health Order 20-36 COVID-19 Dial
NovDecember 720, 2020

7. Financial and Professional Institutions, Including:

●
●
●
●

Banks and credit unions
Insurance and payroll
Services related to financial markets
Professional services, such as legal, title companies, or accounting services, real estate
appraisals and transactions

8. Providers of Basic Necessities to Economically Disadvantaged Populations, Including:

● Homeless shelters and congregate care facilities
● Food banks
● Human services providers whose function includes the direct care of patients in Statelicensed or funded voluntary programs; the care, protection, custody and oversight of
individuals both in the community and in State-licensed residential facilities; those
operating community shelters and other critical human services agencies providing direct
care or support
9. Construction, Including but not Limited To:

● Housing and housing for low-income and vulnerable people
● Skilled trades such as electricians, plumbers
● Other related firms and professionals who provide services necessary to maintain the
safety, sanitation, and critical operation of residences and other Critical Businesses or
Critical Government Functions, and other essential services
10. Defense

● Defense, security, and intelligence-related operations supporting the State of Colorado,
local government, the U.S. Government or a contractor for any of the foregoing
● Aerospace operations
● Military operations and personnel
● Defense suppliers
11. Critical Services Necessary to Maintain the Safety, Sanitation and Critical Operations
of Residences or Other Critical Businesses, Including:
● Law enforcement
● Fire prevention and response
● Building code enforcement
● Security
39

EXHIBIT B

SecondThird Amended Public Health Order 20-36 COVID-19 Dial
NovDecember 720, 2020

● Emergency management and response
● Building cleaners or janitors
● General maintenance whether employed by the entity directly or a vendor (including

●
●
●
●
●

maintenance and repair of ordinary household and business appliances but not in-person
retail sales of such products)
Automotive and bicycle repair
Disinfection
Snow removal
Bail bonds agents
Pest control

12. Vendors that Provide Critical Services or Products, Including Logistics and Technology
Support, Child Care and Services:

● Logistics
● Technology support for online and telephone services
● Child care programs and services, following case and outbreak guidance for child care
and schools
● Government owned or leased buildings
● Critical Government Functions
13. Educational Institutions, for Purposes of providing Critical Services to Students and
the General Public:
● Pre-kindergarten through 12th grade public and private schools for the purpose of
providing meals, housing, facilitating or providing materials for distance learning, and in
consultation with the local public health agency providing in person learning as
necessary, or other essential services to students as determined by the school or school
district in consultation with the local public health agency. Such institutions are required
to work with state and local public health officials and follow case and outbreak guidance
for schools when cases of COVID-19 are suspected or confirmed in students or staff to
determine transmission mitigation strategies, isolation, quarantine and shifting to remote
learning.
● Postsecondary institutions, including private and public occupational schools, colleges
and universities, for the purpose of facilitating remote learning, providing in person
classroom or laboratory education only in limited circumstances when remote learning is
not possible or appropriate , or performing essential functions, such as security, medical
and mental health services, housing, food services, and critical research, provided that
Distancing Requirements are observed.

40

EXHIBIT B

SecondThird Amended Public Health Order 20-36 COVID-19 Dial
NovDecember 720, 2020

APPENDIX B: NON-CRITICAL OFFICE-BASED BUSINESSES
I.

Non-Critical Office-based Businesses may operate at the level described in Section II of
this Order for which the county in which they operate is approved, and must follow the
requirements included in Section III.C of this Order, as well as the requirements
contained in this Appendix.
A.
Employers must implement the following measures within the workplace to
minimize disease transmission:
1.
ensure a minimum of 6 feet of space between all desks and workspaces;
2.
modify the flow of people traffic to minimize contacts, such as identifying doors
for entry or exit only;
3.
conduct standard office cleaning with increased frequency and supplement with
sanitization of high touch areas, in accord with CDPHE guidelines;
4.
provide employees with cleaning and disinfecting products and guidance on daily
workspace cleaning routines; and
5.
post signage for employees and customers on good hygiene and new office
practices.
B.
Employers must implement the following measures regarding employees to
minimize disease transmission:
1.
maximize use of telecommuting and develop in-office rotation schedules;
2.
minimize the number of in-person meetings and maintain 6 foot distancing in
those meetings;
3.
provide guidance and encouragement on maintaining 6 foot distancing and taking
breaks to wash hands;
4.
pursuant to Executive Order D 2020 138, as amended and extended, require face
coverings for all employees, volunteers, and vendors in public indoor spaces
unless the individual is 10 years of age or younger, cannot medically tolerate a
face covering, or is performing one of activities listed in Section II.M of
Executive Order D 2020 138, as amended and extended;
5.
require gloves and masks for any customer interactions; and
6.
allow telecommuting to the greatest extent possible.

C.

Employers must implement the following measures regarding customers to minimize
disease transmission:
1.
require 6 foot distancing measures wherever possible, such as marked space in
check-out lines;
2.
pursuant to Executive Order D 2020 138, as amended and extended, require face
coverings for all customers in public indoor spaces unless the individual is 10

41

EXHIBIT B

SecondThird Amended Public Health Order 20-36 COVID-19 Dial
NovDecember 720, 2020

3.
4.

years of age or younger, cannot medically tolerate a face covering, or is
performing one of activities listed in Section II.M of Executive Order D 2020
138, as amended and extended;
provide hand sanitizer at entrances and other high-traffic locations; and
implement hours where service is only provided to Individuals at Risk of Severe
Illness from COVID-19 if possible.

42

EXHIBIT B

SecondThird Amended Public Health Order 20-36 COVID-19 Dial
NovDecember 720, 2020

APPENDIX C. CRITICAL AND NON-CRITICAL RETAIL
REQUIREMENTS
I.

Non-Critical Retail may operate at the level described in Section II of this Order for
which the county in which they operate is approved. Non-Critical Retailers are
encouraged to continue drive-through, curbside pick-up or delivery for longer term
service wherever possible. Critical and Non-Critical Retailers must implement the
requirements in Section III.C of this Order, in addition to the specific requirements in this
Appendix C. Indoor malls are addressed separately in Section III of this Appendix C.

A.

Critical and Non-Critical Retail must implement the following measures within the
workplace to minimize disease transmission:
1.
Elevate and increase frequency of cleaning practices, including cleaning and
disinfection of high touch areas for both back-room and retail spaces.
2.
Restrict return policy to only items that can be properly sanitized prior to reselling.
3.
Post signage for employees and customers on good hygiene and other sanitation
practices.
4.
Maintain 6 foot distancing between patrons and employees;
5.
Effectively monitor employees’ symptoms as listed in Section III.C;
6.
Require and provide face coverings for all employees, and gloves as necessary
and appropriate;
7.
Provide dedicated, in-store hours for Individuals at Risk for Severe Illness from
COVID-19.

B.

Critical and Non-Critical Retail must implement the following measures regarding
employees to minimize disease transmission:
1.
Provide guidance and encouragement on maintaining 6 foot distancing between
both employees and employees and customers.
2.
Provide appropriate face coverings and gloves to all employees whenever
possible, and also allow employees who can to provide their own appropriate face
coverings and gloves for work activities. Pursuant to Executive Order D 2020
138, as amended and extended, face coverings are required in public indoor
spaces unless the individual is 10 years of age or younger, cannot medically
tolerate a face covering, or is performing one of activities listed in Section II.M of
Executive Order D 2020 138, as amended and extended.
3.
Encourage frequent breaks to allow employees to wash or sanitize their hands.
4.
Require employees to stay home when showing any symptoms or signs of
sickness.

43

EXHIBIT B

SecondThird Amended Public Health Order 20-36 COVID-19 Dial
NovDecember 720, 2020

5.

Provide personal protective equipment (PPE) for employees who are managing
deliveries, returns, etc.

C.

Employers must implement the following measures regarding customers to minimize
disease transmission:
1.
Require 6 foot distancing measures wherever possible, such as marked space in
pick up lines;
2.
Require face coverings for all customers in public indoor spaces unless the
individual is 10 years of age or younger, cannot medically tolerate a face
covering, or is performing one of activities listed in Section II.M of Executive
Order D 2020 138, as amended and extended;
3.
Limit the number of customers on the premises as needed to make 6 foot
distancing between customers attainable;
4.
Provide decals and demarcation for waiting area in lines that meet Distancing
criteria;
5.
Create signage encouraging Individuals At Risk of Severe Illness from
COVID-19 to refrain from shopping outside of dedicated hours set aside for
them;
6.
Create signage to remind of the requirement for all individuals in public indoor
spaces to wear a face covering, unless the individual is 10 years of age or
younger, cannot medically tolerate a face covering, or is performing one of
activities listed in Section II.M of Executive Order D 2020 138, as amended and
extended, and to encourage the use of gloves by customers while on the premises;
and
7.
Provide hand sanitizer and wipes at entrances and other high-traffic locations to
the greatest extent possible.

III.

Retail Markets and Malls. Indoor and outdoor market operators shall follow the
Indoor or Outdoor Event requirements in Appendix I. Both individual vendors
operating within the mall and the common space in indoor malls shall follow Retail
requirements.

44

EXHIBIT B

SecondThird Amended Public Health Order 20-36 COVID-19 Dial
NovDecember 720, 2020

APPENDIX D: NON-CRITICAL MANUFACTURING
I.

Non-Critical Manufacturing may operate at the level described in Section II of this
Order for which the county in which they operate is approved, and must follow the
requirements included in Section III.C of this Order, as well as all of the requirements of
this Appendix.

A.

Employers must implement the following measures within the workplace to minimize
disease transmission:
1.
Create and implement policies or procedures for all of the following:
a.
Limiting group interactions to keep any group less than ten (10) people by
i.
staggering of shift changes, breaks, lunches, etc., and
ii.
eliminating all-staff in-person meetings or lunches;
b.
Modifying the flow of people traffic to minimize contacts, such as
arranging one-way flow of work and people;
c.
Implementing 6 foot distancing and impermeable barriers between
employees whenever possible;
d.
Limiting the sharing of tools, equipment, or other resources to the greatest
extent possible, and if not feasible, implement cleaning and disinfection
protocols as often as possible for any such shared tool, equipment and
resources; and
e.
Requiring hand washing upon arrival and before departure, establishing
set hand washing time frames throughout shifts, and providing additional
hand washing stations if possible.
2.
Conduct cleaning protocols as follows:
a.
Daily deep cleaning and disinfecting and full cleaning in-between shifts in
accordance with CDPHE guidance; and
b.
Establish protocols to increase the frequency of sanitization in work and
common spaces, following OSHA requirements and CDPHE guidance,
found here;
3.
Provide contactless options, such as entry to the worksite, payments, etc.,
whenever applicable and possible;
4.
Use paperless, electronic options whenever possible to reduce the use of sharing
paperwork;
5.
Ensure ventilation of work and break areas is in line with OSHA guidance;
6.
Support transportation arrangements that discourage carpooling; and
7.
Develop a Preparedness and Response document in accordance with OSHA
guidance.

45

EXHIBIT B

SecondThird Amended Public Health Order 20-36 COVID-19 Dial
NovDecember 720, 2020

B.
Employers must implement the following measures for employees to minimize disease
transmission:
1.
Provide guidance about how to comply with 6 foot distancing;
2.
Designate workers to monitor and facilitate distancing on processing floor lines;
3.
Require employees to use masks or face coverings, except where doing so would
inhibit that individual’s health, in which case reasonable accommodations should
be pursued to maintain the safety and health of all parties;
4.
Require employees to wash their hands upon arrival to and before departure from
the facility, as we well as frequently during workshifts, in accordance with the
policy required in Section I.A.1.vi of this Appendix;
5.
Disinfect work stations between shifts and/or at the end of the workday;
6.
Group employees into teams or shifts that remain together;
7.
Stagger employee lunch and break times;
8.
Encourage all employees not critical to in-person operations to continue working
from home or working remotely; and
9.
Encourage the wearing of masks or other face coverings while carpooling, and
individuals are required pursuant to Executive Order D 2020 138 to wear a face
covering while taking public transportation, unless the individual is 10 years of
age or younger, cannot medically tolerate a face covering, or is performing one of
activities listed in Section II.M of Executive Order D 2020 138, as amended and
extended, in which case reasonable accommodations should be pursued to
maintain the safety and health of all parties.
C.

Employers must implement the following measures regarding customers to minimize
disease transmission:
1.
Prohibit entry to the worksite of all non-essential external visitors;
2.
Conduct symptom checks for any essential visitors who will interact with
employees;
3.
Require essential visitors to wear masks or face coverings, unless the individual is
10 years of age or younger, cannot medically tolerate a face covering, or is
performing one of activities listed in Section II.M of Executive Order D 2020
138, as amended and extended, in which case reasonable accommodations should
be pursued to maintain the safety and health of all parties; and
4.
Encourage 6 foot distancing and implement procedures to limit person-to-person
interaction in inbound/outbound shipping areas.

46

EXHIBIT B

SecondThird Amended Public Health Order 20-36 COVID-19 Dial
NovDecember 720, 2020

APPENDIX E: FIELD SERVICES
I.

Field Services may operate at the level described in Section II of this Order for which the
county in which they operate is approved, and must follow the requirements included in
Section III.C of this Order, as well as all of the requirements of this Appendix.

A.

Employers must implement the following measures regarding employees to minimize
disease transmission:
1.
adhere to all general rules or guidance on social gathering limitations when
working out of the office;
2.
implement procedures for field-based employees to monitor for symptoms and
report-in to management daily on health status.
3.
comply with the Distancing Requirements and maintain a 6 foot distance
between employees and from their customers;
4.
provide gloves and masks for any customer interactions or work being done in
third-party home, office spaces, or other public indoor spaces;
5.
When scheduling or conducting field services, either the employer or an employee
must inquire whether third-party homes have individuals symptomatic for
COVID-19 or have been in contact with known positive cases, and exercise
caution when inside the home and interacting with anyone in the home if they do;
6.
maintain a detailed log of customer interactions to enable contact tracing if it
becomes necessary. The log should include name, date, and location of contact,
as well as the contact’s phone number and/or email address;
7.
require that all tools or equipment be sanitized after each customer visit;.
8.
prioritize work accommodations for Individuals at Risk of Severe Illness from
COVID-19, prioritizing telecommuting;
9.
provide guidance and encouragement on personal sanitation, including frequently
washing hands. This guidance should include all of the following:
a.
frequently and thoroughly wash your hands with soap and water for at
least 20 seconds. If soap and water are not available, use hand sanitizer
with at least 60% alcohol;
b.
cover coughs and sneezes with a tissue, then throw the tissue in the trash,
or use your inner elbow or sleeve;
c.
avoid touching your eyes, nose, and mouth with unwashed hands;
d.
stay home if you’re sick, and keep your children home if they are sick; and
e.
clean high touch surfaces in your home, and personal items such as cell
phones, using regular household products; and
10.
real estate open houses must follow the Indoor Events requirements in Section
III.M. and Appendix I of this Order.

47

EXHIBIT B

SecondThird Amended Public Health Order 20-36 COVID-19 Dial
NovDecember 720, 2020

B.

Employers must implement the following measures regarding customers to minimize
disease transmission:
1.
provide estimates, invoices, receipts, and other documentation electronically to
negate the need for paper;
2.
provide contactless payment options in the field whenever possible;
3.
encourage customers to maintain 6 foot distancing from field service employees;
and
4.
encourage customers to use facial coverings when field services are being
conducted and pursuant to Executive Order D 2020 138, as amended and
extended, require face coverings if the services are provided in a public indoor
space unless the individual is 10 years of age or younger, cannot medically
tolerate a face covering, or is performing one of activities listed in Section II.M of
Executive Order D 2020 138, as amended and extended.

48

EXHIBIT B

SecondThird Amended Public Health Order 20-36 COVID-19 Dial
NovDecember 720, 2020

APPENDIX F: PERSONAL SERVICES
I.
Personal Services may operate at the level described in Section II of this Order for
which the county in which they operate is approved, and must follow the requirements included
in Section III.C of this Order, as well as all of the requirements of this Appendix.
A.

Employers and sole proprietors must implement the following measures within the
workplace to minimize disease transmission:
1.
Employ strict hygiene guidelines and cleaning and disinfection procedures for all
contact surfaces and tools, in accordance with CDPHE Worker and Customer
Protection Guidelines for Non-Healthcare Industries;
2.
Ensure a minimum of 6 feet of separation between clients and customers,
including services for pets, when not directly performing service;
3.
Post signage for employees and customers on good hygiene and safety measures
being taken;
4.
Minimize in-home and in-facility services with remote alternatives whenever
possible, such as drive-by services or virtual meetings; and
5.
Implement the capacity restrictions in Section II of this Order on a per room basis.
All businesses offering services through employees or lessees in individual rooms
must comply with the requirements of this Order for each room.

B.

Employers must implement the following measures regarding employees to minimize
disease transmission:
1.
Services with close personal contact, such as beauty professionals, massage, etc.,
must implement the following:
a.
wear a face covering and gloves at all times, or, if wearing gloves is not
feasible or appropriate, meticulous hand washing;
b.
change gloves and wash hands between every individual or pet served;
c.
clean and disinfect all shared equipment and tools between every
individual or pet served; and
d.
maintain a detailed log of customer interactions to enable contact tracing if
it becomes necessary. The log should include name, date, details of
services performed, and location of contact, as well as the contact’s phone
number and/or email address.
e.
for services where the client cannot wear a mask (facials, beard trims,
etc.), the employee or practitioner is strongly encouraged to wear a
medical-grade mask whenever possible, and must wear a face shield in
addition to their mask.

49

EXHIBIT B

SecondThird Amended Public Health Order 20-36 COVID-19 Dial
NovDecember 720, 2020

2.

C.

Personal services with low personal contact, such as movers or repair services,
must implement the following:
a.
maintain a minimum of 6 feet of separation between customers;
b.
require face coverings and, if feasible, gloves for any customer
interactions; and
c.
provide guidance on strict hygiene precautions to employees.

Personal Services must implement the following measures regarding customers to
minimize disease transmission:
1.
provide customer services by appointment only, do not allow walk-ins or waiting
for an appointment, and follow Distancing Requirements;
2.
require customers to wear face coverings, except
a.
for personal training in a pool,
b.
if the service being performed requires the removal of a mask (e.g. a
facial, lip waxing or beard trim), or
c.
where the individual cannot medically tolerate a face covering, in which
case reasonable accommodations should be pursued to maintain the safety
and health of all parties; and
d.
if a customer does not have a mask, a "disposable mask" could be
provided;
3.
conduct symptoms check for all customers of services with close personal contact
and decline to provide services to anyone who has symptoms. A sample form can
be found here; and
4.
provide contactless payment options whenever possible.

50

EXHIBIT B

SecondThird Amended Public Health Order 20-36 COVID-19 Dial
NovDecember 720, 2020

APPENDIX G: LIMITED HEALTHCARE SETTINGS
I.
Limited Healthcare Settings may operate at the level described in Section II of this
Order for which the county in which they operate is approved, and must follow the requirements
included in Section III.C of this Order, as well as all of the requirements of this Appendix.
Limited Healthcare Settings may conduct voluntary and elective surgeries and procedures in
limited healthcare facilities and offices with required personal protective equipment (PPE) in
accord with the priorities, requirements, and specific criteria below.
A.

1.

2.
3.

4.
5.
6.

B.

Employers and sole proprietors of Limited Healthcare Settings must implement the
following measures within the overall workplace, including administrative and front
office operations, to minimize disease transmission:
The practice must have access to adequate PPE in order to sustain recommended PPE use
for its workforce for two weeks without the need for emergency PPE-conserving
measures. If a practice proposes to extend the use of or reuse PPE, it must follow CDC
guidance.1
The practice must implement strict infection control policies as recommended by the
CDC.2
The practice must ensure a minimum of 6 feet of separation between clients and patients,
when not directly performing service, and all settings offering services in individuals
rooms must comply with the requirements of this Order for each room.
The practice must post signage for employees and patients on good hygiene and safety
measures being taken.
The practice must minimize in-home and in-facility services with remote alternatives
whenever possible, such as drive-by services or virtual meetings.
Practices must maintain a plan to reduce or stop voluntary and elective surgeries and
procedures should a surge/resurgence of COVID-19 cases occur in their region.

Employers of Limited Healthcare Settings must implement the following measures
regarding employees to minimize disease transmission:
1. Services with close, direct personal contact must implement the following:
a. wear medical grade mask and gloves at all times; however, acupuncturists may
substitute good hand hygiene by thoroughly washing hands before and after
seeing each patient for the gloves if their licensing requirements and standards so
allow;
b. change gloves and wash hands between every patient;
c. clean and disinfect all shared equipment and tools between every patient; and

1 https://www.cdc.gov/coronavirus/2019-ncov/hcp/ppe-strategy/index.html
2 https://www.cdc.gov/coronavirus/2019-ncov/hcp/infection-control.html

51

EXHIBIT B

SecondThird Amended Public Health Order 20-36 COVID-19 Dial
NovDecember 720, 2020

d. maintain a detailed log of patient interactions to enable contact tracing if it
becomes necessary. The log should include name, date, details of services
performed, and location of contact, as well as the contact’s phone number
e. for services where the client cannot wear a mask, the employee or practitioner
must wear a face shield in addition to their mask.
2. Services with low personal contact must implement the following:
a. maintain a minimum of six 6 feet of separation between customers;
b. require face coverings and, if feasible, gloves for any customer interactions; and
c. provide guidance on strict hygiene precautions to employees.
3. The practice must require all administrative personnel to wear a facemask, that can be
cloth if necessary, unless the individual cannot medically tolerate a face covering, or is
performing one of the enumerated activities in Section II.M of Executive Order D 2020
138, as amended and extended. In order to ensure staff can take off their masks for meals
and breaks, scheduling and location for meals and breaks should ensure that at least a 6foot distance can be maintained between staff when staff needs to remove their mask. It is
important for healthcare settings to emphasize that hand hygiene is essential to
maintaining employee safety, even if staff are wearing masks. If the facemask is touched,
adjusted or removed, hand hygiene should be performed.
C.
1.
2.
3.

4.
5.

6.

7.
8.

Limited Healthcare Settings must implement the following measures regarding
customers to minimize disease transmission:
The practice must provide services by appointment only, do not allow walk-ins or waiting
for an appointment;
The practice must require patients to wear face coverings; if a patient does not have a
mask, a "disposable medical mask" could be provided;
The practice must conduct symptom checks for all patients, decline to provide services to
anyone who has symptoms, and refer them to their primary care physician. A sample
form can be found here; and
The practice must provide contactless payment options whenever possible;
The practice must follow Distancing protocols of maintaining at least a 6-foot distance
between individuals wherever possible such as in waiting rooms and other small spaces,
and should use physical barriers within patient care areas when possible.
The practice must appropriately schedule patients, so that providers have sufficient time
to change PPE and ensure rooms and equipment can be cleaned and disinfected between
each patient.
The practice should continue to maximize the use of telehealth and virtual office or clinic
visits.
The practice should use virtual waiting rooms when possible, with patients who are able
to wait in their cars not entering the office until they can be moved immediately to an
exam room.

52

EXHIBIT B

SecondThird Amended Public Health Order 20-36 COVID-19 Dial
NovDecember 720, 2020

9. The practice should implement source control for everyone entering the office or clinic,
including requiring all patients and visitors to wear a cloth mask when entering any
healthcare building, and if they arrive without a mask, one should be provided.
D.

1.
2.

3.

4.
5.

As best practice, it is recommended that if performing voluntary and elective surgeries
and procedures, Limited Healthcare Settings reassess their operations every two weeks,
in order to ensure:
All of the above approaches and criteria are being met;
Procedures are prioritized based on whether their continued delay will have an adverse
health outcome.
a. Voluntary and elective surgeries and procedures should be prioritized based on
indication and urgency3;
Strong consideration is given to the balance of risks versus benefits for patients in higherrisk groups such as those over age 65 and those with compromised immune systems or
lung and heart function;
All patients are pre-screened for COVID-19 risk factors and symptoms prior to delivering
care, via telehealth when applicable; and
Compliance with the guidance and directives for maintaining a clean and safe work
environment issued by the CDPHE and any applicable local health department for critical
businesses is maintained, including compliance with Distancing Requirements and all
PHOs currently in effect to the greatest extent possible.

3 Urgent and emergent care should continue in accordance with OHA and CMS guidance.

53

EXHIBIT B

SecondThird Amended Public Health Order 20-36 COVID-19 Dial
NovDecember 720, 2020

APPENDIX H: RESTAURANTS
I.

Restaurants, and Bars that serve food from a retail food licensee with tables spaced at
least 6 feet apart and set seating for on-premise consumption, may operate at the level
described in Section II of this Order for which the county in which they operate is
approved, and must follow the requirements included in Section III.C of this Order, as
well as all of the requirements of this Appendix. Restaurants remain encouraged to
continue curbside pick up and delivery, including alcohol pick up and delivery. Bars that
do not offer food may only provide alcohol service through takeout, curbside pick up and
delivery.

A.

Employers must implement the following measures within the workplace to minimize
disease transmission:
1.
Indoor and outdoor in-person services
a.
Post signage notifying patrons and employees of hygiene and sanitation
expectations, including not entering if they are experiencing any
symptoms.
b.
Patrons in different parties must be a minimum of 6 feet apart. The
spacing of tables should be a minimum of 6 feet to ensure proper
distancing.
c.
Limit party size to 10 people or less, and in Level Red tables are restricted
to household members only.
d.
All employees must wear facial coverings that cover the nose and mouth,
unless the individual cannot medically tolerate a face covering, or is
performing one of the enumerated activities in Section II.M of Executive
Order D 2020 138, as amended and extended.
e.
Employees may utilize disposable gloves as normally required by their
governing regulations. Employees that are directly involved with
disinfecting equipment and surfaces within critical business and/or have
direct contact with customers shall wear gloves when involved in these
activities.
f.
Cleaning and disinfection of all shared surfaces must be done between
seatings.
g.
Ensure proper ventilation per OSHA guidance.
2.

Restaurants, and Bars that serve food from a retail food licensee with tables at
least 6 feet apart and set seating for on-premise consumption, must make every
effort to maintain physical distancing at all times, both inside and outside the
establishment, including:
a.
Using a reservation system, exclusively if possible;

54

EXHIBIT B

SecondThird Amended Public Health Order 20-36 COVID-19 Dial
NovDecember 720, 2020

b.

3.

B.

Disallowing close proximity to others outside the patron’s group by:
i.
eliminating communal and seat yourself options
ii.
providing a hostess seating option or staffing the dining area to
ensure cleaning and disinfection between prior to the next seating
iii.
allowing bar seating options only if the bar is not being used for
bar service or if there is a clearly designated and separated section
of the bar that is not being used for bar service;
c.
Eliminating customer service buffets;
d.
Provide appropriate signs or markings within the Restaurant or Bar to
space lines, indicate which tables are unavailable, prohibit games and
dance floors that encourage gatherings, and direct foot traffic; and
e.
Performers in a restaurant or bar whose performance includes forced
exhalation that increases the potential to aerosolize respiratory droplets,
such as speaking or shouting, singing, playing some instruments, or
physical exertion, must maintain a minimum of 25 feet of distance from
the patrons.
Restaurants, and Bars that serve food from a retail food licensee with tables
spaced at least 6 feet apart and set seating for on-premise consumption, must
implement measures to maintain the cleanliness and sanitation of the restaurant,
including:
a.
Minimize or eliminate high touch surfaces and multi-use objects, such as
games, table cloths if used for multiple seatings, permanent menus, and
condiments, and clean and disinfect any shared objects between uses;
b.
Increase cleaning and disinfection protocols and track with publicly posted
cleaning logs including:
i.
Clean and disinfect restrooms and high touch areas every hour, and
ii.
Block off stalls and urinals with proper signage to adhere to 6 feet
distance between patrons; and
c.
Use disposable items wherever possible, such as single-use menus and
condiments.
d.
Eliminate multi-use utensils (such as hot dog roller tongs, bulk food bins
and coffee urns) at self-service stations that have and implement touchless
self-service wherever practicable.

Employers must implement the following measures for employees to minimize disease
transmission:
1.
Establish a minimum of 6 foot physical distancing standards and train employees
on maintaining distancing between employees to the greatest extent possible
a.
Consider implementing workflow requirements, dividers at pay counters
and hostess areas, and modifying the menu to free up kitchen space.
Limit group interactions including staggering of shift changes, breaks, no
b.
55

EXHIBIT B

SecondThird Amended Public Health Order 20-36 COVID-19 Dial
NovDecember 720, 2020

2.

3.

C.

consumption of family or shift meals onsite, etc.
c.
Conduct virtual staff meetings whenever possible, any all staff meetings
must meet 6 foot distancing requirements.
Face coverings and gloves
a.
Require employees to wear face coverings at all times, unless the
individual cannot medically tolerate a face covering, in which case
reasonable accommodations should be pursued to maintain the safety and
health of all parties, and encourage the use of gloves when in contact with
customers or goods.
b.
Require face coverings and encourage gloves for vendors, suppliers, and
contract workers entering the licensed establishment, except where doing
so would inhibit that individual’s health, in which case reasonable
accommodations should be pursued to maintain the safety and health of all
parties.
Employee sanitary requirements
a.
Encourage frequent breaks to wash hands (at least every 30 minutes)
including upon arrival and departure.
b.
Strict adherence to the hygienic practices listed in the Colorado Retail
Food Regulations regarding hand washing and glove use.

Employers should implement as many of the following measures as feasible regarding
customers to minimize disease transmission and assist in any necessary outbreak
investigations:
1.
To facilitate notifying customers if a disease exposure occurs, consider
a.
providing an option for customers to “sign in”, and
b.
utilizing a reservation system;
2.
Implement as feasible the following low or no touch options:
a.
Provide contactless payment options, and
b.
Continue curbside pick up/delivery options and recommend for vulnerable
individuals or those unable to adhere to hygienic and distancing
requirements;
3.
Ensure 6 foot distancing at all times by implementing the following:
a.
Block off lobbies or waiting areas completely, or establish customer
waiting areas that maintain proper Distancing from other guests, and
b.
Restrict standing or congregating in public spaces such as the bar area,
entrance or exit; and
4.
Pursuant to Executive Order D 2020 138, as amended and extended, require
facial coverings be worn by customers when not seated for dining, and consider
refusing service to customers who refuse to adhere to hygiene and Distancing
requirements.

56

EXHIBIT B

SecondThird Amended Public Health Order 20-36 COVID-19 Dial
NovDecember 720, 2020

APPENDIX I: INDOOR AND OUTDOOR EVENTS
I.

Indoor and Outdoor Events may operate at the level described in Section II of this
Order for which the county in which they operate is approved, and must follow the
requirements included in Section III.C of this Order, as well as all of the requirements of
this Appendix.
A.
Venue size is determined based on usable space per room or designated
activity. An indoor event or outdoor designated activity that includes spectators
may include both the activity space and the spectator space, or these spaces may be
separated, and the venue must apply the appropriate capacity limits to the size of
each designated space. If participants in the designated activity may also at times
move into the spectator space, those participants will count for purposes of the
capacity limit for the spectator space if that space is separately defined from the
designated activity space.
1.
For seated Indoor and Outdoor Events, where the attendees have minimal
movement, such as purchasing concessions or using the restroom facilities,
the calculation of the available space may be based on 6 feet distancing
between non-household contacts and does not require the use of the
Distancing Space Calculator in Levels Blue, Yellow and Orange.
2.
If an Indoor or Outdoor Event has several different facets, some of which
are seated with minimal movement, others of which include movement such
as walking around fairgrounds or through exhibits in a museum, only the
space for the seated events with minimal movement may be calculated using
6 feet distancing without the use of the Distancing Space Calculator.
B.
Designated activities or areas must be separated by a minimum of 50 feet
from each other, maintain separate entrances and exits, and must minimize the use
of shared facilities like restrooms
C.
Performers are not included in capacity limits as long as they do not join the
spectator or patron areas at any time and, for performers whose performance
includes forced exhalation that increases the potential to aerosolize respiratory
droplets, such as speaking or shouting, singing, playing some instruments, or
physical exertion, the performers must remain at least 25 feet from attendees. If
performers join the patron spaces, they must be included in the capacity limit
numbers. Performers should also use a separate entrance and exit from spectators
or patrons.
D.
Operators, employees and attendees must wear face coverings unless the
individual is age 10 or under, cannot medically tolerate a face covering, or is
57

EXHIBIT B

SecondThird Amended Public Health Order 20-36 COVID-19 Dial
NovDecember 720, 2020

performing one of the enumerated activities in Section II.M of Executive Order D
2020 138, as amended and extended. Individuals in public indoor settings,
including performers, must follow the face covering requirements in Executive
Order D 2020 138, as amended and extended.
E.
Operators, organizers or employers must implement employee screening
protocols for all employees as described in Section III.C.3.g of this Order, and
exclude ill or symptomatic individuals.
F.
Operators and organizers must manage the event or activity to comply with
the capacity limits per activity at all times, and further manage traffic flow between
designated activities to minimize or eliminate mixing of groups including the use of
single direction traffic flow in and out of the venue and seating area.
G.
Food sold in these settings must follow the Restaurant requirements in
Section III.J and Appendix H of this Order.
H.

Ventilation in an indoor venue must meet OSHA guidance.

I.
Indoor market operators must follow the Indoor Events requirements in
Section III.M and Appendix I of this Order, outdoor market operators must follow
the Outdoor Events requirements in Section III.M and Appendix I of this Order.
Individual vendors in these settings must follow the Retail requirements in Section
III.E and Appendix C of this Order.
J.
Drive-in events such as theaters or fireworks displays are authorized to
operate, observing the personal gathering restrictions for their level of the Dial, so
long as participants remain in their vehicles unless seeking minimal services, the
vehicles remain a minimum of 6 feet apart, and only minimal common services are
available such as concessions and restrooms.

58

EXHIBIT B

SecondThird Amended Public Health Order 20-36 COVID-19 Dial
NovDecember 720, 2020

APPENDIX J: RECREATION
I.

Individuals may participate in personal recreation and operators may operate Gyms,
outdoor recreational facilities and activities and Organized Recreational Youth or
Adult League Sports at the level described in Section II of this Order for which the
county in which they operate is approved, and must follow the requirements included in
Section III.C of this Order, as well as all of the requirements of this Appendix. Travel
should occur within an individual’s local community or as necessary to access outdoor
recreation areas. If travelling outside their community, Coloradans are urged to honor all
restrictions in place at their destination and avoid travel to counties or municipalities that
issue travel restrictions. Local authorities have the discretion to close recreation as
needed.

A.

Campgrounds. Campgrounds may be open for use. Campground operators must
regularly clean and disinfect all common areas, such as bathrooms, in accordance
with the CDPHE Cleaning Guidance. Group facilities, pavilions, cabins, and yurts
remain closed. Campsites must be a minimum of 6 feet apart, and should only be
available by reservation. Campground operators must post signs to remind guests
of physical distancing requirements, and limit visitors in campground offices to
maintain such distancing.

B.

Outdoor recreation activities are permitted as follows:
1.
Playgrounds and outdoor recreation facilities, such as tennis and pickleball
courts, should clean and disinfect high touch areas frequently.
2.
Outdoor swimming pools capacities do not change in Levels Blue, Yellow
and Orange; instead, they may operate at 50% capacity not to exceed 50
people in all three levels. In Levels Red and Purple, outdoor swimming
pools may operate at 25% capacity not to exceed 10 people. Frequently
touched surfaces, shared objects, and bathrooms should be cleaned and
disinfected every hour.
C.
1.

2.

Organized Recreational Youth or Adult League Sports
Parents may attend youth sports activities but must remain 6 feet apart from
non-household members. Spectators are authorized and must follow the
Indoor and Outdoor Events requirements. Adjacent fields of play should
be distanced to allow for at least 50 feet of distancing between two fields of
play and their respective spectator sections.
All individuals in public indoor spaces must wear a face covering unless the
individual is 10 years of age or younger, cannot medically tolerate a face
covering, or is performing one of the enumerated activities in Section II.M
of Executive Order D 2020 138 as amended and extended.
59

EXHIBIT B

SecondThird Amended Public Health Order 20-36 COVID-19 Dial
NovDecember 720, 2020

3.

4.
5.

D.
1.
2.

The sports leagues and teams must establish protocols for:
a.
Screening both athletes and spectators for symptoms and COVID-19
exposures to ensure they are symptom-free before they are deemed
able to attend or play;
b.
Isolation and quarantine for ill or exposed individuals; and
c.
Requiring athletes with confirmed or presumed COVID-19 infection
to obtain clearance from their health care provider for return to
sports participation
The sports league must retain records of who played in case later disease
outbreak investigations become necessary.
The sports league must notify and cooperate with the local public health
agency regarding any cases of COVID-19.
Gyms
Gyms must maintain 6 feet distancing between patrons, discourage the
sharing of equipment, and clean and disinfected equipment between uses.
All individuals must wear face coverings in Gyms, unless the individual is
10 years of age or younger, cannot medically tolerate a face covering, or is
performing one of the enumerated activities in Section II.M of Executive
Order D 2020 138 as amended and extended.

E.
Competitive Events. Competitive events such as races and endurance
events are permitted as long as 6 foot distancing and limitations on group size can
be maintained. This includes implementing, including implementation of staggered
start times and making efforts to prevent gatherings at starts and finishings, so that
no more than 10 people are gathered at a time.

60

EXHIBIT B

SecondThird Amended Public Health Order 20-36 COVID-19 Dial
NovDecember 720, 2020

APPENDIX K: OUTDOOR GUIDED SERVICES
I.

Outdoor Guided Services, may, if authorized by the local jurisdiction, may operate at
the level described in Section II of this Order for which the county in which they operate
is approved, and must follow the requirements included in Section III.C of this Order, as
well as all of the requirements of this Appendix. Additionally, specific Outdoor
Guided Services may operate in accordance with the following capacity requirements
established per service type:

A.

Non-guided equipment rentals, subject to compliance with the retail requirements in
Appendix C of this Order;

B.

Developed hot springs may operate in accordance with the outdoor pools requirements in
Appendix J of this Order;

C.

The following Outdoor Guided Services must have their plans approved by the local
public health agency in their jurisdiction:
1.
Outdoor recreation activities at ski resorts (mountain biking, hiking, climbing
walls, mountain coasters, ropes courses, adventure parks, zip lines, etc) in
accordance with Section III.S of this Order;
2.
Zip lines, ropes courses, outdoor artificial climbing walls, or outdoor sports
adventure centers not affiliated with ski resorts; and
3.
Scenic trains must have every local public health agency in each jurisdiction
through which the train operates has approved the train’s plans.

II.

Outdoor Guided Services operators must meet any local policies in effect as well as all
of the following requirements:

A.

Distancing and Capacity Requirements
1.
Maintain a distance of 6 feet from patrons and fellow employees, except in cases
where it is unsafe to maintain that distance.
2.
Follow Retail or Restaurant guidelines where applicable.
3.
For vehicles used to transport patrons, the following requirements apply:
a.
No closed-air vehicles or tours are allowed, as windows must remain open
during the transport or tour.
b.
Limit smaller vehicles or crafts to two household units not including
guides. Where a distance of 6 feet can be ensured between household
units, more than two households per vehicle/craft are permitted.
c.
Limit passenger buses and vans to no more than 50% capacity, or less if
distancing requirements cannot be met between groups, and prohibit use
of the seat behind the driver.

61

EXHIBIT B

SecondThird Amended Public Health Order 20-36 COVID-19 Dial
NovDecember 720, 2020

d.

4.
5.

Effective November 9, 2020, follow the transportation guidelines found
here.
Conduct staging operations such as customer check-ins and end-of-trip operations
outdoors with parties from different households spaced 6 feet apart.
Maintain and promote physical distance during a tour or trip. Rafts or vehicles
should not be full, and ensure distance between guide and patrons.

B.

Hygiene, Cleaning and Disinfection Requirements
1.
Post signs for employees and customers outlining good hand/respiratory hygiene
and safety measures being taken. Signs should be in languages customers will
understand. (CDC examples)
2.
Encourage hand hygiene by directing customers to where they can wash their
hands with soap and water or use hand sanitizer.
3.
Vehicles used to transport patrons must be cleaned and disinfected after each use.
4.
Disinfect all equipment used by patrons as well as surfaces or items in common
contact with patrons between each use.

C.

Operators and Employees
1.
Wear face coverings at all times in public indoor spaces pursuant to Executive
Order D 2020 138, as amended and extended, and also during staging and
disembarking operations, unless the individual is 10 years of age or younger,
cannot medically tolerate a face covering, or is participating in one of the
activities listed in Section II.M of Executive Order D 2020 138, as amended and
extended, in which case reasonable accommodations should be pursued to
maintain the safety and health of all parties. Where safe, wear face coverings
during trip operations.
2.
Operators must conduct symptom and temperature checks for employees and refer
symptomatic employees to the CDPHE Symptom Tracker (Additional Guidance).
Employees who exhibit COVID-19 symptoms should not come to work.
Employees who develop COVID-19 symptoms while at work should immediately
notify their supervisor and be separated from others, sent home, and referred to
state or company support services.

62

EXHIBIT B

SecondThird Amended Public Health Order 20-36 COVID-19 Dial
NovDecember 720, 2020

APPENDIX L: CHILDREN’S DAY CAMPS, RESIDENTIAL
CAMPS, YOUTH SPORTS DAY CAMPS AND EXEMPT
SINGLE SKILL-BUILDING YOUTH CAMPS
I.

Summer camps, sports camps, and residential camps may operate at the level described in
Section II of this Order for which the county in which they operate is approved, and must
follow the requirements included in Section III.C of this Order, as well as all of the
requirements of this Appendix.

A.

Prior to hosting a camp, the camp operators must create a plan that implements all of the
following:
1.
All activities, including recreation, transportation, and food service must comply
with the following restrictions:
a.
Six feet physical distancing is required at all times, which may limit
further the size of the group due to the size of the space. If the space is
large enough to accommodate multiple groups and maintain 6 feet
physical distancing, multiple groups are permitted.
b.
Require face coverings during transportation in camp vehicles to and from
the camp, unless the individual is 10 years of age or younger or cannot
medically tolerate a face covering, in which case reasonable
accommodations should be pursued to maintain the safety and health of all
parties.
2.
For staff and camper health and safety:
a.
Provide adequate personal protective equipment (PPE) for staff who
supervise and care for ill campers, staff, and volunteers, and require face
coverings for all individuals in public indoor spaces unless the individual
is 10 years of age or younger, cannot medically tolerate a face covering, or
is participating in an activity listed in Section II.M of Executive Order D
2020 138, as amended and extended.
b.
Determine the staffing needs, including the availability of substitute staff
if staff or volunteers become ill or are exposed.
c.
Ensure space is available to isolate ill staff and campers (cots, bedding,
restrooms, and supervision).
d.
Ensure the on-call availability of a nurse or health care professional.
e.
Establish protocols for responding and reporting cases to health care staff,
local public health authorities, and CDPHE.
f.
Prepare procedures for closures following a case or outbreak of COVID19.
g.
Provide access to or sufficient supplies of all of the following:
i.
public restrooms, drinkable water sources, and picnic or other
eating areas during activities at outdoor locations;
63

EXHIBIT B

SecondThird Amended Public Health Order 20-36 COVID-19 Dial
NovDecember 720, 2020

h.

B.

ii.
handwashing/hand sanitizing locations; and
iii.
adequate cleaning and disinfecting supplies
Train camp staff and volunteers on the requirements of this Order, as well
as prevention, transmission, and care of COVID-19 illness.

Camp operators must meet all of the following requirements while camps are in session:
1.
Staff, volunteer and camper health.
a.
Screen staff, volunteers and campers for symptoms and close-contact
exposures upon arrival. Exclude ill individuals from the camp, and
encourage them to use the CDPHE Symptom Tracker
b.
Staff or volunteers sent home must adhere to isolation and exclusion
requirements.
c.
Establish protocols for staff, volunteers and campers to alert health care
staff of symptoms in themselves or campers.
d.
Determine if any staff or volunteers are at a higher risk for COVID-19 and
consider whether job duties that don’t involve interaction with others are
advisable.
2.
Require staff, volunteers and campers to do all of the following:
a.
Remain with the same group of campers and maintain physical distancing
of at least 6 feet whenever possible, including during meals and recreation;
b.
Wash hands upon arrival, before eating, and at regular intervals
throughout the day;
c.
Stagger activities as much as possible to avoid any mixing of groups, and
d.
Wear masks or face coverings in public indoor spaces and encourage the
use outdoors, unless the individual is 10 years of age or younger, cannot
medically tolerate a face covering, or is participating in an activity listed
in Section II.M of Executive Order D 2020 138, as amended and
extended, in which case reasonable accommodations should be pursued to
maintain the safety and health of all parties.
3.
Post signs or mark spaces to ensure 6 foot minimum distancing, and limit any
activities that are not conducive to maintaining this distance.
4.
Educate campers as needed on COVID-19 prevention, including respiratory
etiquette and good hygiene, in accordance with public health guidance.
5.
Ensure sufficient cleaning and disinfecting of commonly touched surfaces,
equipment, and vehicles throughout the camp.
6.
Provide frequent communication with all families of enrolled campers related to
the occurrences of COVID-19 at the camp, the camp’s responses, and all issues in
the public health order.

64

EXHIBIT B

SecondThird Amended Public Health Order 20-36 COVID-19 Dial
NovDecember 720, 2020

7.

8.

Prohibit family and buffet style food services, self service and counter food
service, and other configurations that require campers to share utensils. Clean and
disinfect dining areas and high touch surfaces between groups.
For residential camps, disallow non-essential visitors to the camp and prohibit
external community organizations from sharing the camp space during the camp
session.

65

EXHIBIT B

SecondThird Amended Public Health Order 20-36 COVID-19 Dial
NovDecember 720, 2020

APPENDIX M: COUNTY SITE SPECIFIC VARIANCE REQUESTS
I.

BACKGROUND

The restrictions contained in this Order may be subject to revision through a county variance
process established by CDPHE. Any county meeting the Level Blue or Yellow metrics as
described in Section II of this Order that desires to apply for a site specific variance from part of
the public health order may do so if they meet certain criteria established below. These
variances allow very large indoor and outdoor venues that meet the criteria to operate in an
alternate fashion after receiving approval from the county’s local public health agency and other
local officials, and then final approval from the CDPHE. The application must be submitted by
the local public health agency directly to CDPHE.
II.

VARIANCE APPLICATION REQUIREMENTS

A.

Application Requirements
1.

2.

Eligibility
a.
Counties that are in Level Blue on the Dial may apply for outdoor and
indoor site-specific variances.
b.
Counties that are in Level Yellow on the Dial may only apply for outdoor
site-specific variances.
c.
Only venues that exceed 30,000 square feet will be considered for a
variance.
d.
If a venue has multiple uses or sectors included in it, the variance request
must specify how the venue proposes to meet the requirements for each
use or sector.
Application Submission. Prior to submitting a variance application to CDPHE,
counties that receive a request for a site specific variance must review and
determine whether to support the request. If the county supports the site specific
variance, the local public health agency may submit a variance application to
CDPHE. The application form must include all of the following:
a.
Identify the site and capacity limit(s) the county is requesting a variance
from.
b.
Describe the disease prevention measures the county will require of the
site to meet the state’s orders.
c.
Use the Distancing Space Calculator to determine capacity.
d.
Use the outdoor and indoor event guidance to create designated spaces
within the site.
e.
Documentation of approval of the variance request must be included in the
variance application from all of the following:

66

EXHIBIT B

SecondThird Amended Public Health Order 20-36 COVID-19 Dial
NovDecember 720, 2020

i.
ii.
iii.

iv.

B.

The local public health agency;
Local hospitals verify that they have the capacity to serve all
people needing their care;
The county commissioners or, in the case of the City and County
of Denver, the mayor of Denver, or, in the case of the City and
County of Broomfield, the city council, vote affirmatively to adopt
the alternative plan in place of the state Safer-At-Home order; and
Counties with sovereign tribal nations (Ute Mountain Ute and
Southern Ute Indian tribes) must obtain a letter of support from
tribes and include it with their variance application.

Application Review. Site specific variance requests will be evaluated based on a
number of factors, including:
1.
County is in Level Blue or Yellow of the COVID-19 Dial;
2.
Square footage of venue;
3.
Map of venue with occupied floor space;
4.
Capacity request, including both the percent and total number of people;
5.
Ventilation plan if an indoor site;
6.
Sanitation plan, including handwashing stations, hand sanitizer and restrooms;
7.
Mask wearing for all staff and participants;
8.
Health exclusion considerations for staff and participants;
9.
Distancing requirements;
10.
Designated areas for participants and activities;
11.
Signage for participants and traffic flow requirements;
12.
Risk assessment analysis; and
13.
Parking and transportation plan.
III.

LIMITATIONS ON VARIANCES

A.
A county in Level Blue or Yellow may apply to CDPHE for up to 10 variances
per 100,000 people for indoor and outdoor venues that exceed 30,000 square feet.
B.
1.
2.
3.
4.

CDPHE will not grant a variance request for any of the following:
A higher capacity than 50%;
Removal from the requirements of the state’s orders generally;
Reduction or elimination of protections for Individuals at Risk of Severe Illness
from COVID-19, as defined in state’s orders;
Modifications of the requirements of Public Health Order 20-29: Voluntary
and Elective Surgeries and Procedures;

67

EXHIBIT B

SecondThird Amended Public Health Order 20-36 COVID-19 Dial
NovDecember 720, 2020

5.
6.
IV.

Modifications to the requirements for nursing facilities, assisted living residences
or intermediate care facilities in PHO 20-20; or
Modification of the mask or face covering requirements.

SUSPENSION, RESCISSION OR TERMINATION OF VARIANCES
A.
If a site that has an approved variance experiences two COVID-19 cases linked to
the site, the county must work with the site to implement mitigation strategies to reduce
or eliminate further spread of disease. CDPHE may suspend the variance at any time, as
deemed necessary, to mitigate disease spread. For counties moving to Level Red, any
site specific variances will be reviewed to determine if the variance should be suspended.
Site specific variances in counties moving to Level Purple are automatically suspended
when the move to Level Purple is effective, unless otherwise authorized to remain in
place by CDPHE.
B.
Approved site specific variances may also be suspended by the local public health
agency. Local public health agencies may also choose to maintain approved site specific
variances in the event that a state order becomes less restrictive than the approved
variance. At no point may an approved variance request be altered to be less restrictive in
any aspect than state orders without updated approval from CDPHE.
C.
Suspension or rescission of a site specific variance will reinstitute the
requirements of this Order at the level for which the county is approved at the time of
suspension or rescission for that site.

D.

All variances granted pursuant to this Order remain in effect until the sooner of:
1.
The county moves to a level where the variance is no longer authorized, or to a
level where the variance is no longer necessary;
2.
The variance is rescinded pursuant to the terms of the variance approval by
CDPHE, rescinded for other reasons by CDPHE, or rescinded by the county; or
3.
This Order expires without further extension or is terminated.

E.

Counties that are unwilling or unable to implement mitigation strategies or take
enforcement actions as warranted are subject to suspension or rescission of variances.
Counties that choose to not comply with executive orders, public health orders, or an
approved variance will be subject to the loss of emergency preparedness or other funds.

68

EXHIBIT B

